<html>
<title> - THE NATION'S WIRELINE AND WIRELESS COMMUNICATIONS INFRASTRUCTURE IN LIGHT OF SEPTEMBER 11TH</title>
<body><pre>[Senate Hearing 107-1025]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 107-25
 
                   THE NATION'S WIRELINE AND WIRELESS
                 COMMUNICATIONS INFRASTRUCTURE IN LIGHT
                           OF SEPTEMBER 11TH

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON COMMUNICATIONS

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                     U. S. GOVERNMENT PRINTING OFFICE
91395                         WASHINGTON:2005

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

                     Subcommittee on Communications

                   DANIEL K. INOUYE, Hawaii, Chairman
ERNEST F. HOLLINGS, South Carolina   CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TED STEVENS, Alaska
JOHN B. BREAUX, Louisiana            TRENT LOTT, Mississippi
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas
    Virginia                         OLYMPIA J. SNOWE, Maine
BYRON L. DORGAN, North Dakota        SAM BROWNBACK, Kansas
RON WYDEN, Oregon                    GORDON SMITH, Oregon
MAX CLELAND, Georgia                 PETER G. FITZGERALD, Illinois
BARBARA BOXER, California            JOHN ENSIGN, Nevada
JOHN EDWARDS, North Carolina         GEORGE ALLEN, Virginia
JEAN CARNAHAN, Missouri
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held March 6, 2002.......................................     1
Statement of Senator Burns.......................................    11
    Prepared statement...........................................    11
Statement of Senator Inouye......................................     1
Statement of Senator Wyden.......................................    13

                               Witnesses

Cangemi, Agostino, Deputy Commissioner-General Counsel, 
  Department of Information Technology and Telecommunications....     2
    Prepared statement...........................................     7
Crotty, Paul, Group President for New York and Connecticut, 
  Verizon, Inc...................................................    33
    Prepared statement...........................................    38
Harris, Gloria, Vice President of Operations--New York, New 
  Jersey and Connecticut, AT&T Wireless..........................    41
    Prepared statement...........................................    44
Herda, Larissa, Chairman, Chief Executive Officer and President, 
  Time 
  Warner Telecom.................................................    50
    Prepared statement...........................................    53
McLean, Christopher A., Counsel, ComCARE Alliance................    23
    Prepared statement...........................................    25
Nash, Glen, President, Association of Public Safety 
  Communications Officials International, Inc....................    29
    Prepared statement...........................................    31
Souder, Steve, Director, Montgomery County, Maryland 9-1-1 
  Emergency Communications Center................................    13


  THE NATION'S WIRELINE AND WIRELESS COMMUNICATIONS INFRASTRUCTURE IN 
                        LIGHT OF SEPTEMBER 11TH

                              ----------                              


                        WEDNESDAY, MARCH 6, 2002

                                       U.S. Senate,
                            Subcommittee on Communications,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:31 p.m. in 
room SD-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Before we proceed, I would like to 
apologize to all of you for the lack of attendance. As some of 
you may be aware, at this moment a special briefing conducted 
by the Secretary of Defense and General Wheeler on the military 
activities in Afghanistan is just about to close. That will be 
followed by a special meeting with President Mubarak of Egypt. 
So I do not expect too many members to be attending this 
hearing.
    However, because of the significance and importance of the 
meeting, I will make certain that your testimony will be 
studied and read by my colleagues.
    In the wake of the tragic events of September 11th, a large 
amount of Congressional attention has rightly focused on 
matters involving the safety and security of Americans. Indeed, 
in the last 6 months this Committee has already considered 
proposals to improve the safety of our ports, our airports, and 
our railways. In keeping with this theme, today's hearing 
examines the safety and security of our Nation's communications 
infrastructure. Through the testimony of today's witnesses, we 
hope to assess both how our wireless and wireline networks 
performed and responded to the events of September 11th and how 
in the future we might improve the reliability and robustness 
of these networks in emergency situations.
    Before going further, let me first express my personal 
thanks to the emergency personnel, government officials, and 
the many communications workers who worked tirelessly both 
during and after September 11th to restore voice and data 
communications. Their relentless efforts, often in the face of 
extreme adversity, deserve both our recognition and our 
gratitude.
    The events of that day placed an enormous strain on our 
communications network in both New York City and Washington, 
D.C. In New York City, damage to a Verizon central office 
caused by the collapse of the World Trade Center cut phone 
service to tens of thousands of businesses and residents in 
lower Manhattan. In Washington, D.C., as individuals attempted 
to contact their loved ones, wireless traffic demand spiked to 
over 200 percent, leaving customers struggling to get a dial 
tone. In both places, officials on the ground struggled to 
communicate and coordinate among the various emergency response 
teams dispatched to Ground Zero and the Pentagon.
    While we in Congress, along with all Americans, hope and 
pray that our wireline and wireless networks will never again 
face so severe a test, we must continue to explore ways to 
improve the resiliency and reliability of our communications 
infrastructure. Moreover, because reliable communication is 
critical to the success of emergency personnel, our efforts 
should also include a consideration of ways in which new 
technological tools such as location information, peer to peer 
communications, reverse messaging, and broadband applications 
can be utilized by emergency personnel in order to help save 
lives.
    Accordingly, I look forward to the testimony of the 
witnesses and their responses to questions that may be posed by 
Members of the Subcommittee.
    We have two major panels. On our first panel I am pleased 
to call the Deputy Commissioner-General Counsel of the cable of 
Information Technology and Telecommunications of the City of 
New York, Mr. Agostino Cangemi, and the Director of Montgomery 
County, Maryland, 9-1-1 Emergency Communications Center of 
Rockville, Maryland, Mr. Steve Souder. Gentlemen, welcome and I 
appreciate your attendance here. Mr. Cangemi, welcome, sir.
    Mr. Cangemi. Good afternoon.
    Senator Inouye. You may proceed, sir.

             STATEMENT OF AGOSTINO CANGEMI, DEPUTY 
          COMMISSIONER-GENERAL COUNSEL, DEPARTMENT OF 
         INFORMATION TECHNOLOGY AND TELECOMMUNICATIONS

    Mr. Cangemi. Good afternoon and thank you for this 
opportunity to tell you the story of our telecommunications 
restoration efforts in New York City following September 11th. 
I will tell you about the challenges we faced----
    Senator Burns. Pull that microphone up so we can hear you a 
little bit.
    Mr. Cangemi. Sure.
    Thank you for inviting me to tell you the story of the 
telecommunications restoration efforts in New York City. I 
would like to address some of the challenges we faced, what 
worked, what worked well, the process we used, were there 
opportunities to improve, what did not work so well, and what 
we are currently doing in New York City to improve the 
infrastructure going forward.
    It has been 6 months. I did want to kind of couch this 
testimony in terms of trying to take you back to that day. For 
many of us in New York, it was an attack on the country, but 
also an attack on where we go to work every day, as well as you 
here in Washington. It was an attack on our families and it was 
an attack on our colleagues. So there was a sense of anger, 
anguish, and a desire to do something on the part of 
telecommunications workers and government officials. We were 
not at Ground Zero able to actually try to dig out the rubble, 
but we tried to do as much as we could.
    That kind of sense is what pervaded the efforts we had 
along with the telecommunications providers in New York City, 
that kind of cut through the clutter, cut through some of the 
competitive issues that I had witnessed in the past. I had 
personally been involved in things as mundane as area code 
proceedings in New York City in front of the Public Service 
Commission and those things can get pretty heated. But around 
the time of September 11th that type of competitive edge and 
clutter was not there and competitors were able to work 
cooperatively together to restore service as quickly as 
possible.
    Let me first address the challenges that we faced. We in 
downtown Manhattan had over 30 critical city government 
buildings. About 50,000 voice lines went down. They were all 
connected to one central office that had been severely damaged 
due to the collapse of World Trade Center 7. We also had to 
migrate our web site. My agency, the Department of Information 
Technology and Telecommunications, is responsible for all data, 
voice, e-government and web site initiatives, as well as we are 
the local franchising entity in New York City. But voice 
remained the biggest issue.
    So what worked? What did we do? Back in the early nineties 
we established something called the MARC, M-A-R-C. I noticed as 
I got off the train here in Washington that ``MARC'' may mean 
something else to you around here, but to us it means the 
Mutual Aid and Restoration Consortium. In the early nineties, 
New York City government officials along with 
telecommunications providers created a consortium, an actual 
contractual agreement as well, among the local 
telecommunications providers to plan for the cooperative 
resumption of voice and data traffic in the event of a 
catastrophic situation. In fact, the broadband franchises in 
New York City or the licenses--what we use franchises for are 
the right to actually provide broadband services in New York--
require participation in this MARC agreement.
    Although many competitive issues had kind of allowed this 
consortium to wane a bit, we were able to immediately convene a 
conference call of the 40 largest telecommunications providers 
in New York City by early September 12th. This included the 18 
franchisees doing data and voice services in New York City, as 
well as the six primary wireless carriers, government 
officials, equipment makers, some of them not officially 
members of the MARC, but wanted to help as much as they could, 
so they participated in our calls.
    We convened twice-daily conference calls and had an open 
bridge line, which allowed everybody to communicate and assess 
the situation as quickly as possible. We shared information. 
Much of the information was proprietary information that 
competitors would not necessarily want to share with each 
other. But it worked to restore service as quickly as possible.
    Generally what the approach we used with MARC was the 
commissioner of my agency would chair twice-daily conference 
calls. We had a central Office of Emergency Management that 
established what the priorities would be for restoration, and 
that was critical because the telecommunications companies were 
getting calls from everyone, calls if they could make the 
calls. But they were getting contacted as much as possible, and 
trying to assess what the priorities were from a New York City 
government perspective was difficult for them and impossible 
without this type of arrangement. So our Office Emergency 
Management played that role and communicated to us what the 
priorities were.
    We would put out the request to the carriers on these calls 
and they would offer to assess, do a field survey to find out 
who can restore service as quickly as possible, as cost 
efficiently as possible, but primarily we were concerned with 
restoration of services as quickly as possible.
    Verizon had dedicated much of their resources to getting 
that central office back up and running, as well as working on 
our police command center--they did a fabulous job there--as 
well as our stock exchange, which was a priority set forth by 
the President.
    When we set out to do this, it involved having access to 
the Ground Zero area. Without this MARC process in place, in 
the early days it was our police department, our local 
responders, that were controlling access to the area. It would 
have been impossible for the competitive providers or many of 
the workers of these companies to get to that area. So we were 
able to coordinate through the MARC process access and that was 
one of the most critical functions, and it served them quite 
well.
    I can tell you that diesel trucks that were necessary in 
order to fuel the generators, the backup generators, in 
downtown Manhattan did not look too inviting on the days of 
September 12th and 13th and would not have been able to get 
down there but for this MARC process in coordination with our 
local police authorities.
    What were the results of this process? Well, our Office of 
Emergency Management had been in 7 World Trade Center and was 
destroyed, but through the MARC and through working with the 
local telecom providers we were able to have an interim 
physical site established within 2 days. City Hall was restored 
by September 14th. Our municipal building, which houses many of 
the critical government agencies and comptroller's office and 
other city agencies, was restored by September 15th.
    What are some other things that worked besides the MARC? 
Well, we had also developed and centralized much of the Y2K 
pricing. The Y2K pricing books were in the Office of Emergency 
Command Center, so many of them were lost. But we were able to 
have some backup plans in place and wiped off a little bit of 
the dust, and many of the scenarios that we had prepared for 
Y2K we were able to kind of use the same processes that worked 
quite well.
    For instance, we had warehoused spare equipment that was 
immediately available for our command center, as well as 
cellular phones and telecom equipment that we had warehoused 
and was accessible for Y2K planning. We were able to supplement 
that with any of the vendors who were on the MARC calls. So as 
far as access to equipment, we were able to procure that and 
obtain that as quickly as possible.
    Other things that worked with the Y2K planning was we had 
an Internet-based communications process. Our Office of 
Emergency Management had a process for essential personnel and 
they were connected through Blackberries and wireless-based 
Internet services, so they were able to communicate at Ground 
Zero.
    We also had a pretty effective GIS mapping process in place 
that was able to develop maps for emergency workers, describe 
the restoration process and access points for buildings. That 
kind of information was critical and we were able to do that 
remotely.
    We implemented Voice Over Internet Protocols. That was 
something that had been in the pilot phase. We did not have 
time for the pilot any more. We implemented it and it worked at 
City Hall as well as a number of other city buildings.
    We greatly increased the wireless capabilities by 
distributing Blackberries and similar types of equipment to 
essential government workers and that was essential to 
restoring services.
    What are some opportunities for improvement? Well, the 
destruction made it--the destruction of the central office 
really created too big of a problem for the government. We had 
much too many lines, 50,000 phone lines, addressed by one 
central office without an alternative carrier in place.
    The other things we did not think about were some of the 
human and physical space factors in planning. Even though we 
were able to restore service, we were not able to get the 
personnel back into the buildings in downtown Manhattan for 
sometimes over a week, sometimes 2 weeks, depending on where 
they were. So that was an area of planning that we could have 
improved upon.
    Also on the wireless front, the wireless carriers were not 
part of the MARC consortium officially, although they 
participated in our calls. I think on that front they are an 
industry not accustomed to local regulation as well as some of 
the tariff providers who are more accustomed to dealing with 
public service commissions and local regulatory authorities. So 
that was probably an industry where we can see some improvement 
in terms of disaster recovery planning.
    Some of the lessons learned. We are going to be developing 
a disaster recovery plan that includes some of the items I 
discussed, such as human and physical factors, as well as 
operations, communications, and technology, and factor in just 
the stress and the trauma and even the death of some of the 
critical resources that may be available. We need to focus 
beyond the IT infrastructure to the relocation and work 
resumption of business users that rely on that infrastructure.
    We did learn that our Y2K plan worked and for other 
municipalities and other jurisdictions across the country, they 
may want to take a look at their Y2K plans and think of them in 
light of the World Trade Center attack.
    Lastly, you have to be creative. Voice Over IP, wireless, 
land line, broadband, we used what worked, as quickly as we 
could get it.
    What I want to address is, quite briefly in closing, is 
what my agency is doing on behalf of the City of New York to 
improve our telecommunications infrastructure. I already 
addressed our GIS application, our mapping application. We are 
going to be mapping all of the broadband fiber in New York City 
onto this GIS application. In the event of another service 
outage, we will have at our fingertips knowledge as to where 
all the fiber exists in our city streets, as well as who owns 
that fiber and an ability to quickly deploy a plan to restore 
service.
    The MARC is something that can work in service outages not 
as dramatic as something that happened at the World Trade 
Center. We are going to try to use this with our downtown 
financial businesses so that they know and they have confidence 
in New York City's infrastructure and they know that there are 
options to them to have a redundant, resilient, 
telecommunications infrastructure in place and they do not need 
to move their businesses elsewhere.
    We are coordinating with those downtown businesses to do 
just that, so that they have an understanding of what the 
infrastructure is. We found out very quickly after September 
11th that they really did not understand. They asked the kind 
of questions about wireless, redundancy--they thought that if 
they paid a bill to MCI WorldCom or AT&T that somehow they were 
going to have five 9's types of redundancy. They did not 
understand kind of the infrastructure that depended on going 
through central offices and how a break point at that central 
office could really bring down their entire operation.
    As far as city government buildings are going, we are 
actually developing an alternative fiber loop in an alternative 
conduit system that will link all of the critical city 
buildings in downtown Manhattan on a completely separate fiber 
conduit path.
    We are also--just trying to be creative, we found out that 
we had water pipes that used to be used 100 years ago for 
water. When firemen needed excess water pressure to fight fires 
in downtown Manhattan, they needed these big pipes in downtown 
Manhattan. They are just sitting there. They are in still 
pretty good shape. We are trying to convert those old water 
pipes for telecommunications purposes and we have seen a lot of 
interest in having that kind of disaster recovery option.
    We are going to be using our city-owned buildings for 
siting of wireless facilities. In the past we shied away from 
that--a lot of community concerns. Everybody wants their cell 
phone to work, but no one wants any cell antennas in their 
area. But we have made that choice. We are going to be using 
our city buildings that actually exist in some of the most 
critical areas to enhance coverage. We view it as both a public 
safety initiative as well as there will be some revenue 
perhaps.
    The other thing we are trying to address is trying to 
reduce the cost for telecommunications providers to get to that 
last mile. In New York City, most of the fiber goes through one 
central path of conduit that circles around downtown Manhattan 
in the main area, but there are still hundreds of buildings, 
large office buildings, that do not have broadband connections. 
We are going to be issuing requests for proposals to try to 
greatly reduce the cost of getting into the building through 
mini-consortiums so that the construction costs of getting to 
that building will be greatly reduced, and once folks have 
broadband connections they will not be as reliant on copper 
connections to a certain central office.
    In conclusion, I think we suffered a great blow on 
September 11th. We were knocked down. We are getting up. We are 
doing exactly the kinds of things to improve our 
telecommunications infrastructure that is necessary to get New 
York City's industry and government back on its feet.
    Lastly, if I may make a small plug. I hear that you are 
interested in coming back up to New York perhaps. It has been I 
think over 200 years, but it would be a nice shot in the arm to 
see you come up to New York, certainly a welcome visit. So we 
look forward to seeing you.
    Thank you.
    [The prepared statement of Mr. Cangemi follows:]

  Prepared Statement of Agostino Cangemi, Deputy Commissioner-General 
 Counsel, Department of Information Technology and Telecommunications, 
                            City of New York
    Mr. Chairman and Members of the Subcommittee:
    I am Agostino Cangemi, Deputy Commissioner and General Counsel of 
New York City's Department of Information Technology and 
Telecommunications (DoITT). On behalf of the City of New York, and 
DoITT, I thank you for the opportunity to appear before you today. I 
would like to touch on several issues related New York City 
government's telecommunications restoration initiatives after the 
September 11 attack: What happened; what worked; recommendations based 
on lessons learned; and, finally, what the city is doing, and requires, 
in order to improve its public safety telecommunications infrastructure 
and preparedness.
WHAT HAPPENED
    Clearly, September 11 had a devastating impact on New York City 
government's communications infrastructure. Scores of buildings, 
including police headquarters, City Hall, our main Municipal Building 
and several other critical city government sites in lower Manhattan's 
Civic Center were thrust into complete communications darkness. These 
failures were a direct consequence of the severe damage to Verizon's 
140 West Street central office caused by the collapse of 7 World Trade 
Center.
    As many as 50,000 telephones on the desks of City employees, and 
thousands of links that provide data access for critical operational 
tasks, were suddenly unavailable. Besides supporting most of the city 
government's telecommunications infrastructure, Verizon's West Street 
facility also housed the point-of-presence (POP) for the Internet 
Service Provider of the city's ``e-government'' website, NYC.gov.
WHAT WORKED
Y2K Preparedness
    DoITT managed restoration activities in close coordination with the 
Mayor's Office of Emergency Management (OEM). As part of Y2K planning, 
DoITT and OEM had already prepared for the possibility of comprehensive 
failure in the city's communications networks, and had established a 
framework for responding to such an event. Among other things, the 
contingency plan included a protocol for providing essential personnel 
with immediate access to wireless and Internet-based communications 
equipment. It included warehousing ``spare'' telecommunications and 
computer equipment that could also be immediately deployed. The 
contingency plan included redundancy for the city's data network at two 
separate locations. And it provided for the city's mainframe data 
center to be remotely located and run as an always-on ``hot site.''
Mutual Aid and Restoration
    Contingency planning for a potential telecommunications crisis in 
New York City truly began in earnest in 1992 with the establishment of 
the New York City Metropolitan area Mutual Aid and Restoration 
Consortium (MARC). MARC arose out of the recommendations of a public-
private mayoral Task Force, which was charged with developing a plan 
for voice and data traffic to be handled by alternative carriers in 
case of a critical disruption to the telecommunications networks 
supporting the city. Fourteen telecommunications carriers that served 
the city's Metropolitan area were the original signatories to the MARC 
agreement, essentially establishing a framework for cooperation among 
competitors. Under the terms of the city's current franchise 
agreements, new franchisees are similarly obligated to ``pursue avenues 
involving mutual assistance,'' as set forth in the MARC agreement.
    Clearly, the telecommunications landscape, with respect to 
technologies, competition and the law, has changed dramatically since 
MARC's inception. This evolution may have diminished signatory 
enthusiasm for the MARC agreement somewhat. Nonetheless, on September 
11, MARC was successfully convened as the primary vehicle for 
delivering alternative voice and data services to essential City 
government offices and operations. The accomplishments of this 
cooperative undertaking came primarily as a result of the ability and 
willingness of the city, MARC members, and participating non-MARC 
members with telecommunications assets in the city to make spontaneous 
adaptations to procedures that did not necessarily anticipate a 
catastrophe on this nature and magnitude. Fundamentally, however, the 
MARC-based framework worked, and worked as follows:

  <bullet>  As envisioned in the MARC agreement, following the attack, 
        DoITT began chairing twice-daily teleconference meetings with 
        MARC members and non-MARC members with telecommunications 
        assets in the city to organize the restoration of voice and 
        data services to city government buildings.
  <bullet>  Critical restoration sites were identified, and 
        prioritized, by OEM's Emergency Operations Center. The 
        telecommunications carriers participating in the 
        teleconferences were asked for proposals either to activate 
        existing carrier services in, or to bring new carrier services 
        to, buildings on the city's critical priority list.
  <bullet>  Carriers who believed they had the ability to provide the 
        required restoration or provisioning services were invited to 
        undertake joint site visits and submit proposals. Vendor 
        selection was based on a carrier's commitment, and apparent 
        ability, to restore necessary services more quickly or more 
        completely than could other potential vendors. Vendors were 
        also required to include cost estimates in their proposals.

    Finally, as also envisioned by MARC, DoITT used the teleconferences 
to encourage and coordinate the pooling of telecommunications resources 
among carriers to further facilitate the delivery of alternative voice 
and data solutions. This took place while Verizon dedicated much of its 
resources to getting their central office back up and running, while 
working on restoring the city's Police command center (where they did a 
tremendous job), and the stock exchange.
    Ultimately, through the MARC process, alternate telecommunication 
services were delivered to city offices by, among other measures, 
physically bringing new fiber and equipment into the affected 
buildings. These newly installed ``facilities'' permitted the provision 
of voice and data services. As necessary, PBX systems were also 
installed to support the restored voice communications. Notably, 
however, Voice over Internet Protocol (VoIP) solutions more quickly 
restored voice services (to such essential critical sites as City Hall) 
than did the PBX systems. In other cases, fixed-wireless solutions 
provided the most expedient route.
    It should be noted that an array of critical activities supporting 
the MARC process took place concurrently with the teleconferences. 
Among them, DoITT actively compiled a database of functioning carrier 
POPs and other network infrastructure elements to augment the city's 
already existing geographic information system (GIS). The GIS maps 
provided information on critical access points for emergency workers. 
Additionally, this centralized inventory of knowledge facilitated a 
more efficient coordination of carrier resource pooling during the 
teleconferences.
    DoITT worked with OEM and the Mayor's Office to help ensure access 
for utility personnel to affected sites for field surveys and 
restoration work. The field surveys were undertaken to develop a scope 
for the specific set of services needed, and to assess the completeness 
of the alternate carrier's proposed solution. Ensuring access to 
``Ground Zero'' was not always a smooth process, due to the 
unprecedented level of security in the area, and the presence of 
emergency response, law enforcement and relief officials from a variety 
of local, state and federal organizations. Nonetheless, in virtually 
all cases, access was eventually secured without inordinate delay under 
the circumstances. It is indeed questionable whether, for example, the 
diesel trucks that were needed to fuel backup generators would have 
been able to gain access at all but for the MARC process in 
coordination with our local Police.
    DoITT also initiated an unprecedented ``wireless MARC.'' To their 
credit, all public and private sector entities transmitting in the 
affected area voluntarily participated. The main purpose of the 
teleconferences, which occurred twice daily at the outset of the 
crisis, was to monitor and, if necessary, remedy any interference on 
the 800 MHz emergency response frequencies. This undertaking was 
especially important because of the many temporary wireless facilities, 
including cells on wheels (COWs), being deployed. Although restoration 
was not undertaken through wireless MARC, this could have been an 
additional function of the initiative had there been such a need.
Results of Preparedness and Restoration Efforts
    As a result of these efforts:

  <bullet>  NYC.gov, which provided city employees and the public with 
        essential information during the crisis, was physically 
        rerouted by 10:40 p.m. on September 11.
  <bullet>  OEM, which lost its building in the attack, utilized a 
        fully equipped mobile bus before establishing an interim site 
        also on the evening of September 11. Within 48 hours, a new, 
        fully operational facility was built.
  <bullet>  City Hall's communication services were restored by 
        September 14. The Municipal building, including the city 
        Comptroller's office and many other city agencies were restored 
        by September 15.

    Ultimately, by quickly restoring communications, the City of New 
York was able to fulfill its core obligation of protecting public 
health and safety. A less tangible, but highly important related 
benefit was that the public was reassured as to the ability of their 
government to do its job in the face of otherwise devastating 
circumstances. Stated somewhat differently, the fact that we were not 
only functioning, but soon operating at a fairly sophisticated level, 
provided some comfort to a city under attack.
LESSONS LEARNED AND RECOMMENDATIONS
    The foremost lesson learned, and my recommendation to other states 
and municipalities, is to establish a comprehensive communications 
recovery plan. Such a plan should at a minimum encompass an 
``operational'' component, a ``resource component,'' and a 
``contingency'' component.
Operational Component
    Governments that have not done so, should consider establishing an 
emergency management entity, like New York City's OEM, with core 
responsibility for undertaking a communications risk assessment and for 
linking this assessment to a business continuity plan. I would further 
recommend consolidating information technology with voice, data, cable 
and other communications functions into a single entity like the New 
York City's DoITT. Such entity would provide centralized expertise to 
the emergency management entity in its communications risk assessment 
and business continuity plan.
    With respect to risk assessment and business continuity plans, I 
would further suggest:

  <bullet>  Prioritize ``mission critical'' applications for 
        restoration.
  <bullet>  Plan for the worst, including both physical and human 
        ``loss.''
  <bullet>  Rehearse and update the plan, especially as key resources 
        and partners change.

    In an emergency, the emergency management entity plays the role of 
quarterback under the Mayor's direction. It also provides an essential 
link to other emergency management bodies, at other levels of 
government, both in preparation for, and in times of, emergency.
Resource Component
    As I noted, governments must prepare for the loss of physical and 
human resources in times of emergency and, particularly, when under 
attack. For example, the telecommunications and computer equipment New 
York City had warehoused as part of Y2K planning were made immediately 
available to OEM when its headquarters at 7 World Trade Center were 
destroyed. These stockpiled resources, along with donated equipment, 
were used to help establish an interim site for the agency within two 
days.
    In hindsight, however, we probably did not sufficiently plan for 
``physical space factors'' (i.e., relocation). Even where the city was 
able to restore telecommunications services, we were not always able to 
get personnel back into buildings for two weeks or more. And in some 
cases the city was forced to make very ad-hoc, and less than ideal, 
arrangements for temporary work space.
    Indeed governments should be ready not only to relocate employees, 
but must prepare for the potential impact of stress, trauma, injury 
and, even, death in their planning. One possible measure is to create a 
``knowledge-oriented'' database that can be accessed if human resources 
suddenly become unavailable.
Contingency Component
    Finally, I would emphasize the critical importance of voice and 
data backup and redundancies as perhaps the most critical elements of 
contingency planning. In New York City's case, network backup and 
redundancies made all the difference in data recovery.
    Voice communication, on the other hand, was among our most critical 
problems. I recommend having a contingency plan in place to access 
alternate carriers, if possible utilizing alternate conduit, central 
offices and technologies. A robust combination of landline, wireless 
and VoIP technologies is invaluable for ensuring fast recovery. Such 
combination provides governments with the flexibility to deploy the 
fastest and best ``fit'' under unpredictable circumstances.
WHAT NEW YORK CITY IS DOING AND WHAT WE NEED
What We are Doing
    Briefly, I would like to summarize the steps New York City is 
taking in the wake of September 11, to improve our communications 
infrastructure:

  <bullet>  Geographic Information System--I have mentioned the city's 
        GIS, or mapping, application. We are going to be mapping all 
        the broadband fiber in the city, and who owns the fiber, on our 
        GIS. With this knowledge at the city's fingertips, in the event 
        of another service outage, we will be able top even more 
        quickly restore service through MARC.
  <bullet>  MARC--The city is revising MARC based on this experience. 
        We are attempting to formalize participation in the consortium 
        by wireless carriers, and to improve the city's coordination 
        with federal and state regulatory and emergency management 
        authorities. In addition to running MARC restoration drills, we 
        will be reaching-out to our business community to determine 
        whether and how the private sector may benefit from MARC.
  <bullet>  Supporting Business Community--The city is coordinating 
        with the downtown business community to assist in their 
        development of a redundant telecommunications infrastructure. 
        At the same time, the city intends to work with other private 
        sector representatives and telecommunications disaster recovery 
        experts to gain a comprehensive picture of private initiatives 
        already underway--at the corporate-level, industry-level and 
        business district level--to assess areas in which the city can 
        play a supportive, or complementary, role. We also want to 
        impress on businesses, based on DoITT's unique vantage-point as 
        a franchising agency, that they have options based largely on 
        the infrastructures already in place for redundant and 
        resilient service (and that they do not need to move their 
        businesses elsewhere).
  <bullet>  New Fiber Loops--The city is issuing a request for 
        proposals to develop in an alternative fiber loop, that will 
        link all of the critical city buildings in lower Manhattan, on 
        a wholly separate fiber conduit path. Trying to be creative, 
        the city has also found that we have vacant water pipes, which 
        have been unused for 100 years, just sitting there in pretty 
        good shape. We are trying to convert these old pipes into 
        alternate conduit, and have seen a great deal of interest in 
        developing that additional disaster recovery option.
  <bullet>  Wireless Facilities on City Buildings--In addition, city-
        owned building will now be used for siting wireless facilities. 
        In the past, we have been reluctant on this front, due partly 
        to community concerns. Nonetheless, the city has determined 
        that it is in the public's best interest to proceed with an 
        initiative to use our buildings to enhance coverage in the most 
        critical geographic areas.
  <bullet>  Reducing Last Mile Costs--We are also attempting to address 
        reducing the cost for competitive telecommunications providers 
        to get access to the last mile. In the City, there are still 
        hundreds of large office buildings that do not have broadband 
        connections. The city is going to issue requests for proposals 
        to try to greatly reduce the cost of getting into the buildings 
        (i.e., by constructing ``laterals'') through mini-consortiums. 
        This would greatly reduce the related construction costs, and 
        reliance of copper connections to a single central office.
What We Need
    Channel 16--As first responders, the city Police, Fire and other 
emergency services must be assured that they will have sufficient 
bandwidth to save lives, and protect themselves, in emergencies. In 
this respect, I can not overstate the importance to the city of being 
provided with the permanent right to utilize the Channel 16 radio 
spectrum (482 MHz--488 MHz).
    The city will soon be petitioning the FCC to remove the conditions 
under which it granted a waiver in 1995 to twelve metropolitan area 
agencies for use of Channel 16 radio to construct a public safety radio 
network. Under its original terms, the waiver was to last a minimum of 
five years, after which time it could be terminated by the FCC for 
digital television use.
    The NYPD utilizes Channel 16 for its data communication needs, and 
has completed installation of Channel 16 interoperability channels for 
use by first responders in the Metropolitan area. City Emergency 
Medical Services (EMS) uses Channel 16 to dispatch ambulance service. 
And the Fire Department is in the process of deploying thousands of 
``fire-ground'' radios to support firefighter communication 
requirements at fire response sites. Following a comprehensive 
consulting study, Channel 16 will be further built-out to support a 
voice and data requirements of City agencies, including Police, Fire, 
EMS and other critical agencies, and to provide interoperability 
between first responders.
    A permanent right to Channel represents our most critical post-
September 11 public safety spectrum need, which cannot be accommodated 
via the overcrowded 800 MHz public safety spectrum, or by Channels 14 
or 15. Ultimately, it represents a unique opportunity for the City to 
develop a state-of-the-art communications system. Because City agencies 
operate primarily in the frequency bands that encompass Channels 14 and 
15, a permanent grant of contiguous Channel 16 spectrum would permit 
interoperability, and enable the utilization of existing radio 
equipment. This would avoid radio replacement costs running in the 
hundreds of millions of dollars. Alternatively, the reallocation of 
Channel 16 to broadcasters could create significant interference with 
the City's operations on Channel 15.
Municipal Franchises
    There appears to be a trend underway, both regulatory and 
legislative, to ``deregulate'' local jurisdiction over 
telecommunications providers in general, and the so-called 
``information services'' offered by ILECs and cable companies in 
particular. The city disagrees with the legal underpinnings for such 
proposals, and we will be filing comments with the FCC making our case. 
Today, from a policy standpoint, I would like to point out that the 
city's experience demonstrates that franchises do not hinder deployment 
of services. Moreover, franchise fees provide municipalities with fair 
compensation for the use of public property. Most relevant to this 
proceeding, however, an overlooked aspect of local regulation is that 
it provides municipalities with leverage to guarantee carrier to 
participate in coordinated restoration initiatives, like MARC. And it 
also provides municipalities with leverage to gain access to critical 
infrastructure information, such as that needed for GIS mapping.
    Finally, there is a need for improvement on the wireless front. 
Although wireless carriers participated voluntarily and commendably on 
the city's MARC after September 11, they are as an industry not 
accustomed to having any binding accountability to local government. 
Since wireless plays such a critical function in emergency first 
response, and in providing communications of last resort in an 
emergency, it would be useful for the federal government to consider 
how the industry can be better brought into the fold in disaster 
recovery planning.
CLOSING
    In conclusion, I would say that New York City suffered a 
devastating blow on September 11. We were knocked down; but we are 
getting up, I think, faster than anyone expected. We are doing exactly 
the kinds of things to reevaluate and improve our telecommunications 
infrastructure that are necessary to revitalize the city government and 
private industry.

    Senator Inouye. Thank you very much, Mr. Cangemi.
    Before I call upon Mr. Souder, Senator Burns, do you have 
any statement?

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I have a statement, Mr. Chairman. I just 
thank you for holding this hearing and I will just submit my 
statement for the record.
    [The prepared statement of Senator Burns follows:]

   Prepared Statement of Hon. Conrad Burns, U.S. Senator from Montana
    I would like to thank the Chairman for holding today's hearing, 
which concerns a topic of critical importance to our national security. 
Today's hearing will review the rapid response to the September 11 
attacks by our public safety officials and commercial wireline and 
wireless carriers, which required nothing short of heroic effort under 
the most extreme pressure imaginable. Additionally, this hearing will 
look to the future to determine how best to create a unified, robust 
national communications infrastructure. The searing experience of 
September 11 revealed the importance of redundant networks, multiple 
facilities-based providers and priority access for public safety 
officials. Additionally, as we venture into the complex area of 
comprehensive spectrum reform, we should bear in mind the vital nature 
of spectrum to those on the front line of homeland defense--our police, 
fire, medical, public health and other emergency response agencies.
    I want to draw particular attention to the very heart of our public 
safety communications infrastructure, the 911 network. In the wake of 
the attacks on America, the underpinning of our entire civil defense 
effort is our ability to communicate during times of crisis. For this 
reason, we must maintain our focus on building out the next generation 
of wireless enhanced 911 services. Enhanced 911 is a key component of 
our national emergency communications system and so is a top priority 
for this Subcommittee. The tools that will prove most valuable in 
responding to additional attacks will also save countless lives in 
individual as well as mass emergencies.
    The Subcommittee will certainly benefit from the expertise of our 
distinguished witnesses as we grapple with these difficult issues. I 
would like to particularly welcome Chris McLean, who will be testifying 
today on behalf of the ComCARE Alliance. Chris has been a tireless 
advocate for the building of the next generation of public safety 
communications--an integrated, digital, nationwide emergency 
communications system. I enthusiastically support this worthy goal and 
look forward to working to implement ComCARE's ``E-Safety Program.'' 
The ``E-Safety Program'' calls for the support of state planning and 
deployment of Integrated Emergency Communications Systems in Model 
States, additional capacity for emergency networks and many other 
positive ideas.
    In 1999 Congress laid out a ``Road Map'' for Public Safety in the 
digital age. As the Chairman of the Senate Communications Subcommittee, 
I authored the e-911 bill, which thanks to the hard work and support of 
many of my colleagues such as Sen. Wyden, was passed into law. The e-
911 bill did a couple of very important things, and recognized some 
important needs in regards to the activity here today: It made 9-1-1 
the universal number for wireless phones. No matter where you are in 
America, 9-1-1 is THE number to connect to emergency responders via 
your wireless phone. Wireless knows no boundaries. Safety and security 
shouldn't either.
    The bill also called for statewide planning and coordination. 
America has over 60,000 emergency, law enforcement, or similar 
agencies. Simply put, we can't go town by town, city by city to improve 
our emergency response system. There is a need to bring folks together, 
leverage investments and resources, cooperate with both the public and 
private sector to establish an infrastructure that improves emergency 
response.
    In August of this past year, Montana did just that. Working closely 
with ComCARE, we put together a tremendously successful e-911 summit. 
The summit was attended by nearly 200 public safety officials, industry 
representatives and interested citizens from around the state who came 
together to discuss the challenges and opportunities facing emergency 
response. The focus of both the Montana 911 summit and today's hearing 
is on how to utilize the tremendous advances being made in wireless 
technologies to make sure that our citizens have access to the best 
public safety network possible.
    While the passage of the e-911 bill was a tremendous leap forward 
in the development of our nationwide emergency response capability, our 
work is far from finished. In fact, much remains to be done. While the 
carriers have made some progress on building out e-91I, their efforts 
need to be expanded and accelerated. I was disappointed that they were 
not able to meet the initial deadline of October I of last year, which 
required them only to begin the process of providing automatic location 
identification for cellphones.
    On February 1st of this year, the wireless carriers reported their 
e-911 deployment progress to the FCC. In those reports, two of the six 
major wireless operators--Verizon Wireless and Sprint--reported that 
they were on schedule. The other four carriers reported that they were 
not on schedule, and two of those asked for waivers of the waivers that 
the FCC gave them last year. While I understand that we are in the 
midst of challenging economic times in the communications sector, every 
effort must be made to build out these vital e-911 services.
    Creating a 21st century, digital emergency communications network 
will require constant effort and oversight. I believe that hearings 
such as the one the Chairman is holding today are vital to this nation 
reaching its goal. As Americans we are facing some great challenges in 
not only improving our emergency response system but preparing for 
future unexpected acts of aggression. Addressing these issues together, 
in a unified approach, we have an opportunity to not only save an 
individual's life, but enhance our ability to respond to events of any 
magnitude. Thank you, Mr. Chairman.

    Senator Inouye. Without objection, so ordered.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I will be very 
brief. I think it is particularly helpful that you are holding 
this hearing right now, Mr. Chairman, because I think this is a 
question of making sure that we not lose the momentum. There is 
clearly an opportunity to focus, and I am interested in working 
with you on the issues.
    In addition, as I think people from New York know as well, 
I am going to be introducing legislation very shortly to create 
what amounts to the technology equivalent of the National 
Guard. We have found that there were a tremendous number of 
people in the private sector, in companies, for example, like 
Intel, that were willing to donate both personnel and equipment 
to try to help to deal with these problems. As the folks know 
from New York, there were some logistical problems in utilizing 
all that talent, simply because we had never faced a challenge 
of this magnitude. So I will have some questions when we get to 
that point, Mr. Chairman. But I so appreciate your leadership, 
because this is what it is going to take to keep the momentum 
alive and really get some results.
    Senator Inouye. Thank you very much.
    Mr. Souder, I am one of your constituents. I live in 
Montgomery County. So I thank you very much for the service 
there. It is yours now.

    STATEMENT OF STEVE SOUDER, DIRECTOR, MONTGOMERY COUNTY, 
         MARYLAND 9-1-1 EMERGENCY COMMUNICATIONS CENTER

    Mr. Souder. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here. Really, although I do work in 
Montgomery County, I was for the previous 16 years Director of 
the Arlington County, Virginia, 9-1-1 center, during the period 
of time of September 11th and really would like my testimony to 
be testimony that is brought to the Committee really from my 
public safety communications colleagues throughout the 
metropolitan Washington area who collectively worked together 
to mitigate the events of September 11th.
    I am sure everyone in this room has indelibly etched in 
your mind where you were in that fateful hour between about 
8:45 and 9:45 on September 11th. But I would ask the question, 
does anybody remember where they were 20 years prior to that on 
the afternoon of January 13th, 1982? Probably not. But for 
those that may recall, that was a snowy day in Washington, 
D.C., and there was an airplane on the runway at National 
Airport preparing to take off for a return flight to Tampa, 
Florida.
    That was Air Florida Flight 90. It took off in the midst of 
a snowstorm that had blanketed the city and it was 
unsuccessful. It crashed onto the 14th Street Bridge, into the 
ice-clogged Potomac River, and all but five of the passengers 
aboard perished.
    Because that event happened where it did, technically in 
Washington, D.C., less than 100 yards from the Virginia 
shoreline, and coincidentally only one quarter mile from the 
Pentagon, the same group of first responders responded to that 
event that did the event at the Pentagon on September 11th--
Arlington County, Alexandria, National Airport, Washington, 
D.C., Fairfax County, Montgomery County.
    When they arrived, all of them well-meaning, none of them 
could talk to the other agency, because 20 years ago they were 
all operating on very divergent radio systems supported by 
various portions of the radio spectrum. It was literally a 
disaster within itself, because if you cannot communicate you 
cannot effectively operate.
    In this very room after that event, there were hearings 
held about that event and the communications difficulties that 
were encountered were highlighted and discussed. We are pleased 
and you should be proud that because of those hearings the 
needs of public safety were addressed, addressed in the fact 
that the FCC opened up a portion of the radio spectrum 
heretofore unavailable to public safety, commonly today 
referred to as 800 megahertz. That 800 megahertz radio spectrum 
allowed the Washington, D.C., area to, as a result of the 
tragic events of January 13th, craft a plan, set a goal, for 
being better prepared to address whatever might befall this 
community in the future.
    As a result of that, in over the past 20 years five major 
communities within the metropolitan Washington area have 
transitioned to 800 megahertz radio. By the end of this 
calendar year, three more major metropolitan area communities 
will do so. When combined to the communities that surround 
Baltimore, Maryland, we virtually have a seamless network of 
public safety first responders radio communications systems 
between north of Baltimore and south of Washington, D.C.
    Consequently, on September 11th when the plane struck the 
Pentagon and the first responders responded they were able to 
do so in a far more effective fashion than had been the case 20 
years prior to that. The communications was virtually seamless, 
flawless, and very effective. It was not perfect, but it 
certainly was very effective.
    That is a result of long-term planning, consolidating your 
resources, sharing information with your neighbors, and having 
a design for really want you want to do. However, just like my 
colleague from New York mentioned, there were difficulties. 
There were challenges. To highlight but two of them--and the 
chair mentioned in his opening remarks about the impacts of 
wireless or cellular communications and these little things we 
call cell phones. There are about 160 million of them in the 
United States today and they tell me that every 24 hours 
another 7,000 subscribers sign on.
    We public safety have become just as dependent upon them as 
has the general public and the business community. Surely one 
of the quick things that occurred on September 11th was 
cellular gridlock. Although we did have our radio systems, that 
is not to say it is the only way we communicate, and we could 
not communicate on cellular telephones. We were in gridlock.
    So one of the things that I believe really needs to be 
looked at very clearly is what is loosely referred to as 
cellular priority access, but bringing that priority access 
down to the first responders level, with discipline, with 
organization, with priority, with a procedure to follow. But 
clearly, we need to have access to those cellular telephones in 
the future.
    Similarly, although the event went very well in the early 
hours of the event, by about mid-afternoon when many other 
assets arrived on the scene, assets that we do not normally 
communicate with, assets that were not, like ourselves, 
equipped with 800 megahertz radios, we could not communicate 
with them nor they communicate with us. We were fortunate in 
that we were able to develop a work-around because we had the 
good fortune of being able to draw upon a stock of excess 
radios and quickly programmed them and distributed them. But 
that took time and it took effort, critical time and critical 
effort.
    So we really need, I believe, also to address the issue of 
how do we establish that interoperability, that word that very 
few of us uttered just a few short years ago and now is on 
everyone's tongue? How do we develop that interoperability 
between not only the first responders who respond every day 
across county and city borders to assist each other, but to 
make that interoperability available to the Federal assets, 
whether it is Defense Department, Justice Department, Treasury 
Department, or others, so that we can have the same level of 
interoperability communications with them as we do with our 
brothers and sisters in the fire and in the law enforcement 
service.
    Although we have been very successful in Washington and are 
proud of it, the unfortunate thing is that less than ten miles 
from where we sit today one of our major suburban communities 
is not able to join in that network of commonality in radio 
systems because, although the FCC was gracious in allocating 
certain portions of the 800 megahertz radio spectrum and we 
have used it, I think, wisely and efficiently, unfortunately, 
because spectrum is a finite natural resource, at least locally 
we need more 800 megahertz so that we can bring into the fold, 
if you will, those other agencies, those other jurisdictions 
who cannot acquire that spectrum right now because it has all 
been exhausted.
    I think one of the persons that will testify in the second 
portion of this hearing, Mr. Glen Nash from APCO, will speak to 
the Committee about that very issue and the importance of 
spectrum to public safety, because in the wireless age in which 
we all live and where it is the cell phone and the pager and 
the PDA and a host of other wireless devices, we are all 
competing for that finite natural resource that we call 
spectrum.
    So it is very, very important that priorities be set, that 
the public's need can be recognized, but also that public 
safety's needs can be recognized also.
    I, like my colleague from New York, thank you for the 
opportunity to testify.
    Senator Inouye. Thank you very much, Mr. Souder.
    If I may, I will begin the questioning. The events of that 
day soon became a matter of national concern. Everything from 
blood banks to security became a matter of national concern. 
How did your office coordinate with other State and Federal 
offices in order to provide relief for the city? Were you able 
to do that?
    Mr. Cangemi. Yes. What we had is a centralized Office of 
Emergency Management and, although it was destroyed in 7 World 
Trade Center, we actually physically located along a pier, and 
at that location we had authorities from other States 
essentially set up cubicles with work stations, computers, 
Internet access, wireless access. Cell phones were distributed 
at the site; developed identification cards for security. But 
at that one centralized Office for Emergency Management, there 
were work stations for our various representatives from the Red 
Cross, the Salvation Army, not-for-profits that were providing 
assistance, State officials, other governmental officials.
    Physical proximity I guess was the answer. Representatives 
from each of those organizations were able to physically kind 
of co-locate and that greatly helped.
    Senator Inouye. I can understand the interoperability of 
the system in the greater Washington area, but did you have 
some sort of connection with other States other than Virginia 
and Maryland and Washington, D.C.?
    Mr. Souder. Unfortunately, we did not. We were able to meet 
our immediate needs by simply calling upon the immediate 
resources that all three major jurisdictions in this area 
provide, namely the District of Columbia as the hub, Northern 
Virginia, and suburban Maryland. Those folks from Northern 
Virginia and from Maryland respectively went out to their State 
level emergency management personnel for the assistance that 
they needed.
    Of course, we had the good fortune, because FEMA is located 
here in our community, that they were quick to respond and 
assist as well. But even FEMA and Virginia Emergency Management 
and Maryland Emergency Management, because they are on 
divergent radio systems, are not able to communicate 
effectively with those that have already been there and really 
are seeking their assistance.
    Senator Inouye. If 9-11 should occur now, can you 
communicate with them now?
    Mr. Souder. We could only do so in the manner that we did 
on the 11th, which would be by sharing with them, if we had 
available, excess radios so that they could communicate with 
us. The good fortune that we had on September 11th is because 
several of those communities that I mentioned earlier that are 
going to become 800 megahertz users by the end of this calendar 
year, the portable radios that their firefighters and EMT's and 
law enforcement personnel are going to eventually be issued 
were in fact in those communities in boxes, yet to be issued, 
yet to be programmed. So we had the good fortune of having more 
than a thousand portable radios, as you might say, in the 
closet.
    We were able to retrieve those radios quickly, program 
those radios, charge the batteries for those radios, which all 
took time, but nevertheless we could quickly do it over the 
course of about 4 hours, and then virtually hand them or 
distribute them out to those people that were coming to assist 
us, like the State level, like the military, and like the 
Federal assets as well.
    Senator Inouye. Obviously, the tragedy of 9-11 can occur in 
any other major city. Have you been able, both of you, to share 
your experience and knowledge with other places?
    Mr. Cangemi. Yes. I have actually made a similar 
presentation to the National Association of Public Utility 
Commissioners, so that was addressed at the State level. Each 
of the 50 States were represented at that hearing. I made a 
presentation in Florida. I have been contacted by the Clark 
County-Las Vegas emergency management officials. A colleague of 
mine at my agency has also been in contact with many other 
municipalities.
    I think they are all interested in our MARC, Mutual Aid and 
Restoration Consortium, model, our Emergency Management Command 
Center model, and are interested in perhaps replicating it at 
their local level as well.
    Mr. Souder. I have also had that good fortune of being 
invited to speak at a number of conferences on these very same 
issues. Although nothing that we did in Washington, in the 
metropolitan Washington area, was terribly unique, but it was 
done with cooperation and collaboration. I think when we have 
explained to our colleagues across the Nation that was really 
the foundation of what we did, it has kind of opened their eyes 
to perhaps a new business model for doing local government 
where the sharing of resources and the planning collectively 
can really work for the good of not only one agency, but an 
entire region.
    Senator Inouye. In your initial discussions with your 
colleagues throughout the land, were you convinced that they 
were ready?
    Mr. Souder. I think ``ready'' is probably a relative term. 
They might be ready as they are doing business today, but I 
think when they have realized how dramatically our world has 
changed since September 11th and the fact that there are 
threats and possibilities out there that heretofore we had not 
given a lot of thought to, combined with the fact that when 
hearing the way other communities deal with things both 
routinely as well as in a disaster, it has provided an 
opportunity for some new thought to be given as to the way that 
business is conducted, particularly in public safety 
communications and the way in which communities and regions 
respond to both routine as well as a major disaster, yes.
    Senator Inouye. Are you convinced that other communities 
are trying to improve their facilities?
    Mr. Cangemi. I think that the other communities are greatly 
interested. I have been actually fielding dozens of calls and 
have shared a copy of our Mutual Aid and Restoration Consortium 
agreement with a number of other municipalities. It is not 
something that they actually were familiar with. They had not 
ever even really contemplated having a consortium of 
competitors working as cooperatively as we had contemplated 
back in 1992. So perhaps it has some steam and will be able to 
be replicated.
    Senator Inouye. I have a few other questions, but let me 
yield to Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    Mr. Souder, could you give me an idea of Montgomery 
County's infrastructure? Do you have one central communications 
center that you dispatch and receive calls?
    Mr. Souder. That is correct. In the business that is 
commonly referred to as a PSAP, a public safety answering 
point. In Montgomery County, as well as in most of the other 
communities throughout the metropolitan Washington area, they 
are served by one communications center that serves the entire 
community as well as all of its public safety resources.
    Senator Burns. Now, whenever a call comes in, an emergency 
call comes in, say it comes in from a--say you have a residence 
on fire, just a fire call, an ordinary fire call. Does your 
fire department--each fire department in the county--and there 
are individual, I would imagine, jurisdictions--do they operate 
on the same frequency or different frequencies?
    Mr. Souder. They all operate on the same common radio 
system, as well as the same common radio frequencies within 
that system. The assignment of a given frequency is done at the 
PSAP or the dispatch center, so that the command and control of 
that event is really controlled at the PSAP and each unit and 
each event is given its separate channel or frequency to talk 
on.
    Senator Burns. Is the same true with your police?
    Mr. Souder. Yes, it is.
    Senator Burns. Now, tell me, in our PSAP or whatever, you 
receive a call, you call that policeman in that jurisdiction. 
Then can you monitor their conversation between them and their 
headquarters, and do you do that?
    Mr. Souder. Yes, we can, and yes, we do. We would be their 
headquarters, so we would be able the monitor the conversations 
that were taking place both between the unit and headquarters 
as well as between units and units.
    Senator Burns. I am thinking of New York and redundant 
systems. You mentioned your redundant systems. Tell me about--
you say now you are going to have broadband wired redundant 
systems. How about wireless?
    Mr. Cangemi. As far as wireless goes, from a local 
perspective we have not actually had that much kind of 
interaction with the wireless folks because we do not have 
regulatory authority over the wireless industry. But one of the 
plans--what we were able to deploy in New York was wireless 
128K modem access. There is a company called Metrocom that 
actually is in bankruptcy. I wrote a letter to the bankruptcy 
court following September 11th, which allowed them to actually 
restart the company again, to the detriment of some of the 
creditors, but I found that they were understanding.
    What we do is we have our light poles in New York City have 
antennas on the light poles. That is an extraordinarily fast 
means of communicating wirelessly. We were able to actually use 
that. We have plans to reinvigorate a similar system in New 
York going forward.
    Senator Burns. Voice and data?
    Mr. Cangemi. It is not currently set up for voice. It is 
just data right now. But I think it is possible to actually 
have some voice on the network as well.
    Senator Burns. Mr. Souder, have you ever asked your vendors 
if the police wanted to communicate with fire--let us say under 
the circumstances of a deployment of police handling security, 
fire trying to deal with their situation. Yet they cannot talk 
to each other by radio because both of them are operating on 
different frequencies. Have vendors ever come up with a radio 
device that will switch frequencies on the individual radio?
    Mr. Souder. Well, within the 800 megahertz type of radio 
system that is in use in our metropolitan area and many other 
areas of the country, those systems would allow for the law 
enforcement personnel to communicate with the fire and rescue 
personnel on an as-needed basis on the same system and, when 
necessary, on the same channel. So that really is one of the 
tremendous advantages that are associated with the 800 
megahertz trunking technology.
    Senator Burns. Tell me, in order to bring you up to speed 
how much more spectrum do you think you require out there to 
really be effective?
    Mr. Souder. The APCO organization which Mr. Nash will 
represent at the next portion of this hearing will speak to 
that. I think one of the problems is that the spectrum that has 
been allocated recently by the Commission, that is commonly 
referred to as that which used to be assigned to television 
channels, is spectrum that unfortunately will not under the 
best of circumstances be available to public safety until 
December 31st of 2006. That is only initially, and by nature of 
some formulas that are associated with how and when that 
spectrum in reality will be available, predicated upon the 
amount of digital televisions that are in service in a given 
particular geographical area will influence that.
    So we really need that spectrum, I believe, much sooner 
than the 31st of December in the year 2006. We need it today. 
But even if we got it then, I am not sure that would be really 
meaningful, in that because of the passage of that date, if 
there has not been that transition to digital television, what 
is in theory ours cannot be ours until that 85 percent 
saturation point of digital televisions has taken place in a 
given market area.
    Senator Burns. Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Let me begin with you if I can, Mr. Cangemi. Am I 
pronouncing that right?
    Mr. Cangemi. Yes.
    Senator Wyden. Great. I think your testimony is especially 
important because it seems to me, and sort of the attitude I 
bring to this is, that New York City is arguably the most 
sophisticated place on the planet from a communications 
standpoint and yet we had what amounts to a total meltdown for 
a period of time. I was struck at my hearing where one of the 
fire chiefs who responded to the problem said that at one point 
his only means of communicating directions to firefighters on 
the front lines was handwritten notes delivered by runners on 
foot. So for a period of time there was just a complete 
meltdown.
    As I have studied what has gone on in New York, it seems to 
me you did a lot of things very well in terms of coming back. 
Now the question is sort of where do we go from here. That is 
what I want to ask you some questions about.
    Let me begin in terms of this concept of trying to utilize 
the many people in the private sector who would like the help, 
the companies with people and equipment, and ask you whether 
you think it would be useful to have a preexisting database, a 
database that would be created now and would be in place and 
updated, so as to have an ongoing list of available private 
sector technology and communications resources that you could 
call on if you were faced with another attack like September 
11th?
    Mr. Cangemi. Absolutely. Many of the participants on the 
MARC calls were those kinds of companies, folks that did not 
have any obligation to be participating on our calls and all 
they wanted to do was help and make their resources available. 
Large telecommunications equipment companies provided donations 
of equipment, donations of trailers to bring up 
telecommunications as quickly as possible. To have a database 
like that would actually be extraordinarily helpful going 
forward.
    Senator Wyden. Good. That is one thing we will include.
    One other aspect of this. You know, this country has got a 
strategic petroleum reserve in order to have a measure of 
protection against a calamitous situation with respect to oil. 
It seems to me I think we would be well served by having what 
amounts to a strategic technology reserve in effect. It could 
be a virtual technology reserve where companies could pledge 
equipment and resources again if there was a problem.
    Would that be useful to you?
    Mr. Cangemi. Absolutely. We had our own reserves for Y2K 
planning and there was a certain amount of generosity on behalf 
of the companies in the days following September 11th. But from 
a global perspective I think that would be helpful nationally.
    Senator Wyden. Mr. Souder, do you agree? I gather you 
already have some reserves with respect to radios and that kind 
of thing and that strikes me as plenty useful. There is a lot 
of interest in that at home in Oregon even for things like 
fighting forest fires. But my sense is that the private 
companies would be willing to do a whole lot more, and I gather 
you would be sympathetic to something like that as well?
    Mr. Souder. Absolutely. I think, in credit to them--and I 
know it occurred in New York and it certainly occurred in our 
area--is that the response by the private sector to the needs 
of the public sector could not have been better. It was good 
fortune, though. Not that it would not have come forward, but 
everything was lined up right, if you will. It was a beautiful 
day, kind of a fall day, clear skies, middle of the day. There 
were not a lot of the things that could impair that, if you 
will.
    But that was good fortune. Picture it happening in Oregon 
in the middle of a snowstorm in the middle of the winter and it 
may not come together quite as smoothly as that. So to have the 
kind of structured database of resources available clearly 
would ensure that it could come together regardless of what the 
circumstances were.
    Senator Wyden. The next area I would like to explore with 
you is that the key to making this work is to ensure that it is 
first responder-friendly, that all of these resources from the 
private sector really help the first responders. The last thing 
people from Intel, say, want to do is basically stand around 
and get in the way when people in New York and D.C. are trying 
to respond to these kinds of things.
    Do you have any thoughts or suggestions with respect to how 
to make sure that this is first responder-friendly and that 
these resources from the private sector complement the kind of 
work that your people are doing, Mr. Cangemi?
    Mr. Cangemi. I agree. There had been a proceeding in front 
of the FCC regarding wireless priority and a Federal agency had 
actually tried to establish a wireless priority, kind of 
creating these super-cell phones that would in the event of an 
emergency have access and everyone else would kind of fall down 
the priority list. I was amazed that New York City first 
responders were not included on that.
    Senator Wyden. Were not included?
    Mr. Cangemi. Were not. We submitted comments describing how 
as first responders we were there in the days following the 
World Trade Center and it took approximately a week before we 
saw a presence at the Federal level in terms of FERC, those 
kind of emergency responders. So we think it is a great idea. 
We just want to make sure that kind of priority access gets in 
the hands of the first responders proportionately.
    Senator Wyden. Mr. Souder?
    Mr. Souder. I would agree with that comment also. We have 
reached out to our six major wireless carriers in the 
metropolitan area, wanting to meet with them and see if we 
cannot orchestrate a system whereby, should an event of this 
magnitude occur in the future and we have cellular gridlock 
again, that notwithstanding the efforts of the Senate and the 
House and the FCC along these lines, that we would having a 
working partner in the form of the carriers, so that they could 
do whatever they could do internally to their systems to kind 
of address the problem, if you will.
    Mr. Cangemi. Just a follow-up. We have actually already 
addressed that with a company that wants to bring up the 
wireless data network in New York City and they have assured us 
that as far as the modems that New York City emergency workers 
would have, we would be able to have priority access. So that 
is critical to us.
    Senator Wyden. Did you bump up against any obstacles in 
taking donations? I have heard reports that there are some 
legal constraints in terms of what you can take because of a 
suggestion that somehow, in some way, someone would enrich 
themselves or something like that. I have heard of 
credentialing questions or people, for example, who came to New 
York City and had difficulty getting credentialed.
    Again so I am clear on this, Mr. Cangemi, I think you all 
did a lot of things very, very well. This is not in any way 
supposed to be some broadside. To the contrary, the question is 
trying to think down the road a little bit to deal with these 
questions for the future. I would be interested in your 
response on that.
    Mr. Cangemi. I am sorry? As far as the donations?
    Senator Wyden. Any obstacles with respect to what you could 
take and how you could use it, your thoughts on the 
credentialing issue, that general area.
    Mr. Cangemi. Honestly, Senator, in the days following 
September 11th I kind of put my General Counsel hat down and 
acted as a Deputy Commissioner and tried to get the job done. 
We had an open kind of system, so that all the calls and the 
donations and those kinds of offers were being made with their 
competitors hearing it, so it kind of allayed some of the fears 
I may have had if there were any accusations of favoritism as a 
result of that.
    We had this open system. There were 40 of the largest 
telecommunications providers communicating at the same time, 
with the opportunity to assist equally. Any offers that made 
sense to us were accepted and that offer was available to 
everybody.
    As far as credentialing, I leave that to the emergency 
management folks to answer. They were at first very hesitant to 
credential certain representatives. I was able to provide them 
with a list of our MARC, Mutual Aid Restoration Consortium, 
participants and their respective companies, and that helped 
with credentialing of at least the companies that participated 
in our conference calls.
    Senator Wyden. I know my time is up. Thank you, Mr. 
Chairman.
    Senator Inouye. Senator Burns.
    Senator Burns. I have no other questions.
    Senator Inouye. I would just like to ask one question. In 
every community there are radio stations and TV stations that 
have been designated for emergency signals. Did that system 
work on that day?
    Mr. Cangemi. Senator, I actually saw a news story in the 
New York Times about how that system was not deployed following 
September 11th, how there was kind of this actual--there were 
personnel, staffed 24 by 7, who were supposed to do that.
    The main antenna that serves broadcast in New York City was 
on top of the World Trade Center. The folks who were only 
served by that antenna did not receive any kinds of television 
type motivation. As far as cable television goes, the system in 
place seemed somewhat antiquated because of the news coverage 
that existed on a multitude of channels. So while it was not 
employed, it did not seem as if there was a lack of 
information, at least to the customers in the New York City 
area that had web access or cable television access in the days 
following September 11th.
    Senator Inouye. Mr. Souder?
    Mr. Souder. Although I do not have direct knowledge of it, 
my understanding is that in this area the news media was very 
effective in broadcasting the events that were occurring at the 
Pentagon and some of the traffic issues that were associated 
with that. But I am not sure that the Emergency Broadcast 
System per se actually was activated, and my understanding is 
that is an issue that is being looked at this time.
    Senator Inouye. Gentlemen, on behalf of the Committee I 
thank you very much.
    Mr. Souder. Thank you very much.
    Mr. Cangemi. Thank you, sir.
    Senator Inouye. Now may I call upon the Counsel of ComCARE 
Alliance, Mr. Christopher A. McLean; the President of the 
Association of Public Safety Communications Officials 
International, Mr. Glen Nash; the Group President for New York 
and Connecticut of Verizon, Mr. Paul Crotty; the Vice President 
of Operations, New York, New Jersey, and Connecticut, AT&T, Ms. 
Gloria Harris; and the Chairman, CEO, and President of Time 
Warner Telecom, Ms. Larissa Herda.
    May I first call upon Mr. McLean.

              STATEMENT OF CHRISTOPHER A. McLEAN, 
                   COUNSEL, COMCARE ALLIANCE

    Mr. McLean. Thank you. Thank you very much, Mr. Chairman. 
If I may be indulged in a point of personal privilege, I want 
to say as a former staffer to Senator Jim Exon, it is indeed a 
very deep personal and professional honor to appear before this 
Committee.
    The ComCARE Alliance is a not-for-profit coalition of over 
75 organizations in the medical, emergency response, 
telecommunications, transportation, and technology sectors, 
dedicated to advancing policy and technologies to improve 
emergency communications in individual and mass events.
    The war on terrorism will be won or lost on information. 
Emergency responders on the front lines of homeland security 
need information to do their jobs. It is their most important 
tool. Every day we send first responders into harm's way 
without the information tools they need to save our lives or 
protect their own. Without change, the jobs of our heroic 
emergency responders will get even more difficult.
    In general, the emergency communications network of America 
is voicecentric, with minimal data capabilities. Emergency 
calls are being dropped, operators are being overwhelmed, 
responses are delayed for lack of location information, 
communications systems can quickly become gridlocked, there is 
little ability to share data among multiple emergency response 
agencies or to communicate securely across jurisdictional and 
agency lines.
    What is needed is a coordinated and integrated approach to 
upgrading all emergency communications, and this Committee gave 
a very good blueprint for that pathway in enacting the Wireless 
Communications and Public Safety Act of 1999.
    The E-Safety program was developed with the help and 
guidance of experts in the field and was adopted by the ComCARE 
Alliance board of directors. Some of those experts include 
Jenny Henson from the State of Montana, the 9-1-1 
administrator, and Gary Haycox of Intel from the State of 
Oregon.
    The E-Safety program is designed to address the Nation's 
need in mass emergencies in a way that will significantly 
improve our ability to handle thousands of daily individual 
emergencies as well. The E-Safety program has eight essential 
elements:
    Point one, we need to increase the capacity and reliability 
of America's communications network. Emergency response starts 
with a call for help from a citizen and every effort must be 
made to ensure that there is sufficient fixed and wireless 
bandwidth deployed to be able to handle call and data volume in 
times of emergency. Being connected saves lives. The 
availability of robust wireless, wireline, and satellite 
networks enhances public safety and security.
    Point two, we need to deploy modern end-to-end emergency 
communications systems. Every emergency--every emergency agency 
should have at least one broadband connection and at least one 
intelligent work station.
    Point number three, location technologies need to be 
deployed. Knowing the location of an emergency is critical to 
speeding response. If you were to make a call to 9-1-1 from 
your home phone in most parts of this country, the emergency 
responder would have your street address on their screens in an 
instant and help can be dispatched even if you are unable to 
talk. They do not have that capability when you call from a 
large complex like the Capitol because the call goes through a 
PBX system, or from a wireless phone.
    Where location is being deployed is in the car. Telematics 
leaders like Onstar and ATX are making Americans safer by 
delivering location safety products, and the Congress should 
encourage those types of activities.
    Point number four, there needs to be support for State 
planning and deployment of integrated systems in model States. 
Leading States are ready to bring together all stakeholders, 
and grants should be made available to help create model 
deployments in these leading States. Places like Montana where 
Senator Burns chaired an E-Safety summit are ready to lead the 
way and to bring modern emergency communications tools to their 
everyday response to emergencies.
    Point number five, we need to have two basic tools for all 
emergency agencies to move into the E-Safety realm: a national 
emergency electronic registry and event mapping capability. 
There is no comprehensive electronic directory of all emergency 
response and public health agencies, nor is there a directory 
of the type mentioned by Senator Wyden. The national nonprofit 
registry being developed by the ComCARE Alliance could help 
fill that gap.
    We also need to encourage the broad use of shared 
electronic mapping of emergency event information. An emergency 
event web site could help solve the PSAP readiness riddle for 
enhanced 9-1-1 capabilities for wireless communications.
    Point number six, we need to increase emergency response 
training. Wherever ComCARE goes we hear a common theme: 
Emergency response professionals want and need more training, 
and in times of emergency the public needs reliable information 
and instructions on how to move from danger to safety. 
Fortunately, America has a time-tested system to alert the 
public to weather dangers through the NOAA Weather Radio 
Network. Mr. Chairman, no one has done more for NOAA than you 
and the members of this Committee.
    I am especially proud of my former agency, the Rural 
Utilities Service, for its leadership and efforts to close the 
NOAA Weather Radio gaps in rural America. What is needed now is 
for NOAA and the National Weather Service to continue and 
rapidly expedite their work to make the weather radio system a 
true all-hazards warning system.
    Point number seven, we need to develop research and new 
safety applications. Congress should encourage major public and 
private efforts to develop critical civil defense and emergency 
applications which can use the basic E-Safety platform.
    Point number eight, we need to support a national education 
and outreach effort. All the key members of the emergency 
response community, from first responders to 9-1-1 operators to 
the folks in the hospital and emergency rooms, need to be 
involved in understanding what together they can do with new 
technologies.
    This is a very unique and important moment to form an 
integrated approach to emergency communications and response. 
That approach was very clearly put forward by this Committee in 
the Wireless Communications Public Safety Act of 1999. Mr. 
Chairman, this Committee has done so much to advance emergency 
preparedness and response. The E-Safety program seeks to build 
on that solid record of success, and we welcome at the ComCARE 
Alliance the opportunity to work with the Committee to help 
make America safer.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. McLean follows:]

 Prepared Statement of Christopher A. McLean, Counsel, ComCARE Alliance
The E-Safety Program
    Mr. Chairman and members of the Committee, I am Christopher A. 
McLean, counsel to the ComCARE Alliance. As a former staffer for 
Senator Jim Exon, it is a deep personal and professional honor to 
appear before this Committee.
    ComCARE stands for Communications for Coordinated Assistance and 
Response to Emergencies. The ComCARE Alliance is a not-for-profit 
coalition of over 75 organizations in the medical, emergency response, 
telecommunications, transportation and technology sectors dedicated to 
advancing policy and technologies to improve emergency response in 
individual and mass events.
    The ComCARE Alliance salutes all the American heroes in public 
safety who daily put their lives on the line for their communities as 
well as those who work with little recognition and fanfare to be the 
information bridges between those agencies, and between the public and 
public safety.
    Our nation is engaged in a war unlike any other. In this war, 
America's greatest civil defense weapons are information and the 
ability to communicate.
    The war on terrorism will be won or lost on information. It was one 
piece of information relayed to passengers in a plane over Pennsylvania 
on September 11th which brought heroic action to save the lives of 
many, many people in the nation's Capitol.
    Police, fire, medical, public health and other emergency responders 
on the front lines of homeland security need information to do their 
jobs. It is their most important tool.
    Indeed, every American has a role to play in making America safer. 
The vigilance of individual citizens and the emergency communications 
systems of the nation are valuable defensive weapons.
    We would not send soldiers into battle without being well armed and 
well protected. Unfortunately, every day, we send first responders into 
harm's way without the information tools they need to save our lives 
and protect their own.
    The emergency communications systems in many parts of the country 
are antiquated and, in some rural communities, they are struggling 
without even basic 9-1-1 systems.
    Without change, the jobs of our heroic emergency responders get 
even more difficult.
    In general, the emergency communications network is voice centric. 
It does not often utilize modern communications or information 
management tools which are so common now in industry. There are too 
often large disparities between the information capabilities of 
emergency agencies in the same jurisdiction, and between well funded 
urban and suburban communities and rural areas. Every day in large and 
small cities around the nation, emergency calls are being dropped, 9-1-
1 operators are being overwhelmed with multiple calls, and responses 
are delayed for lack of location information. In mass emergencies, 
wireless and wireline communications systems can quickly become grid-
locked. At the scene of an emergency, there is very little ability to 
share data among multiple emergency response and public health 
agencies, or to communicate securely across jurisdictional and agency 
lines in an emergency or in anticipation of an emergency.
    What is needed is a coordinated and integrated approach to 
upgrading all emergency communications. We need to evolve current voice 
grade systems and civilian network capacity into modern, robust, 
networks capable of improving response to mass disasters and every day 
emergencies.
    The ComCARE Alliance has been working in the field of emergency 
communications for more than four years. Immediately following the 
September 11th attacks, the Alliance convened a working group of our 
members to consider the lessons learned from September 11th and lay out 
an action agenda for a quick start program to enhance our emergency 
communications infrastructure. The E-Safety Program is the result of 
those efforts. It was developed with the help and guidance of experts 
in the field and adopted by the ComCARE Alliance Board of Directors.
    The E-Safety Program proposes to enhance homeland security by 
helping bring 21st century capabilities, commonly used in e-Business 
today, to emergency response, deploying integrated, interoperable and 
interconnected wireline and wireless systems and applications. The E-
Safety program is designed to address the nation's need in a mass 
emergency in a way that will significantly improve our ability to 
handle thousands of daily individual emergencies as well.
    The E-SAFETY PROGRAM has eight essential elements. In short, they 
are:

  <bullet>  Increase the Capacity and Reliability of America's Wired 
        and Wireless Communications Networks;
  <bullet>  Deploy Modern End-to-End Emergency Communications Systems;
  <bullet>  Deploy Enhanced 9-1-1 for Wireline, Wireless and PBX; 
        Deploy Telematics for automobiles;
  <bullet>  Support State Planning and Deployment of Integrated 
        Emergency Communications Systems in Model States;
  <bullet>  Provide the two basic E-Safety tools to All Emergency 
        Agencies:
  <bullet>  National Emergency Electronic Registry; and
  <bullet>  Event Mapping Capability.
  <bullet>  Augment and Increase Emergency Response Training;
  <bullet>  Make a Commitment to Research, Develop and Deploy New 
        Safety Applications and Devices;
  <bullet>  Support National Education and Outreach, Bringing Together 
        All the Key Emergency Stakeholder Communities

    I am pleased to discuss the specifics of each.
Point 1. Increase the Capacity and Reliability of America's 
        Communications 
        Networks.
    Every effort must be made to ensure that sufficient fixed and 
wireless bandwidth is deployed to handle call and data volume in times 
of emergency. Enhancing the capacity, capability and reliability of our 
nation's essential telecommunications networks should be a matter of 
national security.
    Imagine if a citizen needed to communicate information about 
subsequent terrorist attacks at twelve noon of September 11th. In all 
likelihood, that call would not go through.
    Today, the wireless phone has become an indispensable safety 
device. Consumers carry wireless phone for convenience of conversation, 
but most often, ``just in case of an emergency.'' On September 11th and 
increasingly in day-to-day life, our wireless networks reach their 
capacity. Enhancing that capacity through sound spectrum policy, new 
technology and cell site policy will enhance public safety. We need to 
ensure that the wireless safety net stretches broadly and with as few 
holes as possible.
    In the war on terrorism, it could be a vigilant citizen on a cell 
phone or in a telematics equipped vehicle who observes and reports a 
hijacked truck, suspicious activity at an airport, or terrorist or 
criminal activity. And similarly, we must provide sufficient spectrum 
for public safety agencies' own use.
    Providing adequate spectrum and cell site locations to meet needs 
in times of mass emergency also works to ensure that the phone works in 
instances of a crime, a crash or a medical emergency. Being connected 
saves lives. Now more than ever, we cannot afford to let wireless dead 
zones become deadly zones.
    All carriers should be encouraged to invest in their networks. The 
availability of robust wireless, wireline and satellite networks 
enhance public safety and security.
Point 2. Deploy Modern End-to-End Emergency Communications Systems.
    We need to empower and tie all emergency response and public health 
agencies together with broadband connections and basic modern 
information technology. Every emergency response and public health 
agency such as police, fire, 9-1-1, hospital and health care facilities 
should have at least one broadband connection and one intelligent work 
station.
    What worked on September 11th were broadband internet connections 
and wireless IP connections. Today many emergency responders do not 
have basic information infrastructure.
    For example, one of our members, the American Public Health 
Association, reported that only about one half their members had 
broadband connections and about 10% did not even have e-mail.
    High speed networks would connect responders to the tools of next 
generation emergency response such as a national emergency electronic 
directory, data sharing systems, incident mapping, and other 
applications. Responders need the ability to send, receive and move 
real time emergency information among and between multiple agencies.
Point 3. Deploy Enhanced 9-1-1: Wireline, Wireless and PBX; Deploy 
        Telematics
    Knowing location is critical to emergency response. The most 
effective and efficient methods of Enhanced 9-1-1 deployment must be 
used, including overall state planning and organization. The deployment 
of telematics safety systems in cars should also be strongly 
encouraged.
    If you were to make a call to 9-1-1 from your home phone, in most 
parts of this country, the emergency responder would have your street 
address their screen automatically. Help can be dispatched, even if you 
do not talk.
    If you were to call from this room, the 9-1-1 reported address 
would be ``Capitol complex.'' Location information speeds response. It 
is vitally important that the federal government, at least, ensure that 
its phones are locatable and encourage the private sector to work with 
emergency responders to find solutions. An excellent example of public/
private partnership is in Washington State where Bob Oening, State 9-1-
1 Administrator worked with Boeing to provide locations for phones on 
its vast Washington State network.
    On the wireless side, today, wireless calls account for nearly 40% 
of 9-1-1 calls in some communities. Today, wireless phones are not 
locatable, although commercial technologies to do so are available. 
Make that same 9-1-1 call from your cell phone from the plaza in front 
of the Capitol, and the dispatcher will have no idea where you are. 
Indeed, the call could be answered in Virginia. This Committee has done 
a great deal to raise the profile of this important issue.
    In the car, telematics is one of the most important safety features 
to be developed in recent years. By providing a hands free 
communications link, navigation, automatic crash notification and a 
mayday alert, powered by telecommunications and location technology, 
the telematics leaders in the auto industry are making Americans safer 
by delivering location and safety products. Those efforts should be 
encouraged.
Point 4. Support State Planning and Deployment of Integrated Systems in 
        Model States.
    Leading states are ready to bring together all stakeholders, plan 
sophisticated, integrated emergency and transportation communications 
and information systems, and then deploy them. New information 
technologies hold great promise in helping bridge the gap between urban 
and rural response capabilities.
    Grants should be made available to create models of deployment in 
these leading states for other states to emulate, and to encourage 
state emergency communications planning.
    This Committee understands well the importance of coordinated 
state, federal, local and private sector planning. Thanks to the 
leadership of members of this Committee, the Congress enacted 
legislation which includes the clear blueprint for action.
    In enacting the Wireless Communications and Public Safety Act of 
1999 (WiCAPs '99) the Congress called for a coordinated, end to end 
response to emergency communications planning.
    Working together, communities are stronger than working separately. 
Several States have taken leadership role in beginning to give life to 
the vision of WiCAPs '99. ComCARE is proud to be working with these 
states to advance the vision of an integrated approach to emergency 
communications planning.
    Just days before September 11, Senator Burns convened an historic 
public safety summit in Helena, Montana. The ComCARE Alliance was 
honored to participate. By bringing people together, and continuing a 
formal dialogue, participants are discovering that they have common 
needs, new opportunities to share and leverage resources and the 
support of the State's political leadership to get the job done. We 
look forward to continuing to work with the public safety community in 
Montana.
    In Virginia, the Virginia Department of Transportation is funding a 
ground breaking effort in the Shenandoah Valley to create a 21st 
Century emergency communications capability. Thanks to the leadership 
of Congressmen Wolf, Goodlatte and Boucher the Shenandoah Valley is 
quickly becoming a test bed for new thinking in emergency 
communications.
    In Washington State under the leadership of Senators Murray and 
Cantwell and with the support of the Washington State Center for the 
Digital Bridge, a Washington State E-Safety Summit is planned for this 
March 26th.
    And in Oregon, Senator Wyden's Net Guard proposal has inspired the 
public safety and technology communities in Oregon to begin a dialogue 
on next generation response technologies.
    Through these efforts, communities learn that they are not alone. 
They see opportunities to leverage existing funding sources and 
technology projects. The private sector discovers that there are 
innovation solutions for public/private partnership and resources well 
spent can solve multiple problems.
Point 5. Provide Two Basic Tools to All Emergency Agencies: National 
        Emergency Electronic Registry and Event Mapping Capability.
    There is no comprehensive, electronic directory of all emergency 
response and public health agencies. Therefore neither the President 
nor any other appropriate entity has the ability to send emergency 
warnings or data to all or some emergency responders or public 
information outlets in a particular area. The national non-profit 
registry being developed by ComCARE will fill that gap.
    We also need to encourage broad use of shared electronic mapping of 
emergency event information. Emergency data and information can be sent 
to a shared map resource by emergency managers, telematics companies, 
wireless carriers, commercial transportation and others, and displayed/
shared by all relevant emergency responders. These enabling 
technologies, combined with broadband connections to a safety network 
create a basic
    E-Safety platform on which a wide variety of other safety 
applications can operate.
Point 6. Augment and Increase Emergency Response Training
    New threats and new technologies require new training. There is a 
continuous need to ensure that new employees and volunteers are fully 
prepared for the challenges that face our nation. Fortunately, new 
communications technologies can make training more efficient. The same 
broadband platform for emergency response can be used for a host to 
digital training uses in times of peace and calm.
    Where ever ComCARE goes, we hears a common theme. The hard working 
professionals in the emergency response field want more training. We 
especially need to share the lessons of September 11th and the anthrax 
attack.
    The public also needs to be informed of their role in the war on 
terrorism. Public information is a vital government role.
    In times of emergency, the public needs reliable information and 
instructions on how to move from danger to safety. Fortunately, America 
has a time tested system to alert the public to weather danger through 
NOAA weather radio network. The ComCARE Alliance applauds the Committee 
for its work and support for the NOAA all hazards warning network 
initiative. NOAA Weather Radio saves lives and it is the nation's 
largest most expansive radio network. It is an important backbone 
network for emergency warnings. I am especially proud of my former 
agency, the Rural Utilities Service for its leadership in efforts to 
close the NOAA weather radio gaps in rural America. In the Senate farm 
bill, the stage is being set to finish the job.
    NOAA and the National Weather Service must continue and expedite 
its work to make the Weather Radio System a true all hazards warning 
system.
Point 7. Make a Commitment to Research, Develop and Deploy New Safety 
        Applications and Devices
    We must encourage major public and private efforts to develop 
critical civil defense and emergency applications which can use the 
basic E-Safety platform. This requires a significant university-based, 
emergency response research capability; rapid, industry-based open 
standards development efforts; and major public and private investments 
in new safety applications and devices.
Point 8. Support National Education and Outreach, Bringing Together All 
        the Key Emergency Stakeholder Communities
    We need to involve all the key members of the emergency response 
community in understanding--together--what is possible with the new 
technologies, and in planning, deploying and creating new operations 
protocols based on them. ComCARE and its non-profit membership 
associations like Emergency Nurses Association, National Emergency 
Number Association, American Public Health Association and the American 
College of Emergency Physicians should be given the resources to hold 
national, state and local conferences, and to run communications 
programs with agency and private sector partners, focused on best 
practices and new technologies. They are ready to step up to the plate 
and help bring emergency communications and response into the 21st 
Century.
    To achieve the E-Safety program will require some new legislation 
and appropriations, but significant elements of the E-Safety program 
can be accomplished through a coordinated approach to existing programs 
and homeland security and through cooperation with the private sector. 
Billions of dollars have already been appropriated. The President has 
appointed a respected leader to head the Office of Homeland Security. 
This is a unique and important moment to forge an integrated approach 
to emergency communications and response. That approach was very 
clearly put forward by this Committee in WiCAPs '99. It is fully 
consistent with the Administration's approach to federalism and 
homeland defense. This is a moment and an opportunity which should not 
be lost.
    Mr. Chairman, thank you again for inviting ComCARE to be 
represented at today's hearings. The individual members of this 
Committee and the Committee as a whole have done so much to advance 
emergency preparedness and response. The E-Safety program seeks to 
build on that solid record of success and we welcome the opportunity to 
work with the Committee to find ways to make America Safer.
    Thank you Mr. Chairman.

    Senator Inouye. Thank you very much, sir.
    Then I will call on Mr. Nash. Mr. Nash.

STATEMENT OF GLEN NASH, PRESIDENT, ASSOCIATION OF PUBLIC-SAFETY 
                   COMMUNICATIONS OFFICIALS-
                      INTERNATIONAL, INC.

    Mr. Nash. Thank you, Mr. Chairman. My name is Glen Nash. I 
am an engineer with over 29 years experience in the design of 
public safety communications systems and I am the President of 
the Association of Public-Safety Communications Officials-
International, more commonly known as APCO.
    APCO is the Nation's oldest and largest public safety 
communications organization. The majority of APCO's 15,000-plus 
members are State or local governmental employees who manage 
and operate the communications systems used by police, fire, 
emergency medical, disaster relief, and other public safety 
agencies.
    The events of September 11th forced all of us to examine 
the vital role played by public safety agencies. These first 
responders literally are the front line troops, not only in the 
domestic war on terrorism, but also in the day to day reality 
of living in a less than perfect society.
    To do their jobs effectively, public safety agencies need a 
variety of tools. At or near the top of the list of those tools 
lies effective radio communications. Public safety agencies use 
radio communications for command and control and to provide 
vital information and other resources that enable field 
personnel to do their jobs better. Additionally, effective 
communications between and amongst on-scene police officers, 
firefighters, EMS personnel, and other first responders is 
critical.
    To achieve these goals, there are two intertwined 
communications issues that need to be addressed on behalf of 
our public safety agencies. First is spectrum capacity and 
second is interoperability. Public safety agencies in many 
areas face dangerous congestion on existing channels due to 
limited spectrum. This lack of spectrum also makes it 
impossible for many public safety agencies to implement the 
technologies that would make their field operations more 
effective. Furthermore, it impacts the ability of different 
agencies to communicate with each other, as they often are 
forced to operate on separate incompatible frequency bands.
    In 1996 it was my pleasure to serve on the Public Safety 
Wireless Advisory Committee that documented the spectrum and 
interoperability problems. The Committee identified the need 
for 97.5 megahertz of new spectrum, including 25 megahertz 
needed within 5 years. Unfortunately, on September 11th, 2001, 
exactly 5 years after the PSWAC report was released, no new 
spectrum had been made available nationwide for public safety 
use.
    Yes, the 1997 Balanced Budget Act required the FCC to 
reallocate 24 megahertz of spectrum from television channels 60 
to 69 for public safety use. The FCC has complied with that 
requirement by reallocating specific TV channels for public 
safety use in what is now called the 700 megahertz band. 
However, the act also stipulates that incumbent broadcasters 
can continue to operate in this band until December 31st, 2006, 
or until at least 85 percent of the households in the relevant 
market area have access to digital television, whichever is 
later.
    That 85 percent provision creates uncertainty as to when 
the spectrum will ever become available. This makes it 
impossible for most State and local governments to plan, fund, 
or begin to design systems utilizing this new spectrum. 
Therefore, we urge Congress to establish a firm date for the 
availability of this spectrum for public safety use. We are 
joined in this effort by the International Association of 
Chiefs of Police, the International Association of Fire Chiefs, 
the National League of Cities, the National Association of 
Counties, and many other organizations who agree that Congress 
needs to revisit this issue.
    While making the 700 megahertz band available for public 
safety use will help address the lack of adequate spectrum, it 
is not a panacea for resolving public safety's interoperability 
problem. Currently public safety agencies operate in ten 
different frequency bands, many of which are incompatible with 
each other. The obvious solution is to put all public safety 
agencies into a single radio band. However, no single block of 
radio spectrum has yet been identified which is capable of 
satisfying the entire public safety requirement for 
communications. Furthermore, moving all existing public safety 
users to a new band would impose tremendous costs upon State 
and local governments.
    Therefore, we encourage Congress, the NTIA, and the FCC to 
consider making available frequency bands that are immediately 
adjacent to existing public safety spectrum allocations. As I 
discussed earlier, Congress attempted to do this in 1997 when 
it required the FCC to make available spectrum in the 700 
megahertz band, which is immediately adjacent to existing 
public safety spectrum at 800 megahertz. However, this 700 
megahertz spectrum is not currently available in many areas of 
the country. We need to have a firm date for the availability 
of this spectrum to support our Nation's police, fire, and 
emergency medical personnel.
    Senator Burns, I would like to expand upon a question that 
you asked of Mr. Souder regarding whether agencies on different 
frequencies are able to talk with each other. The answer to 
that question really is it depends. First off, as I indicated 
earlier, public safety agencies operate on ten different 
frequency bands, many of which are incompatible with each 
other. In some areas of the country agencies have been able to 
congregate together, as they have done here in the Washington 
metro area, to operate in one of those bands or at least in 
immediately adjacent bands, which would allow for some 
compatibility. If this has occurred, it is technically possible 
for them to intercommunicate.
    However, there is a second problem that comes into that. It 
involves the issue of prior planning and it really requires the 
agencies to have sat down prior to an event that they do not 
know is coming and they do not know the magnitude of what it is 
going to be and to have laid out a plan of how they would 
intercommunicate.
    Over the years we have had many incidents that I have gone 
back at and looked at as an after-action report where the 
complaint has been made that the agencies were unable to 
communicate with each other. As we have looked at their radios, 
they in fact had common radio channels. They were able to 
communicate. They just did not know it. They had not done the 
preplanning that they really needed to do and, as Mr. Souder 
indicated, a critical part of this is for the agencies involved 
to get together and discuss how they would intercommunicate and 
what they would do when the event happens that they do not 
expect.
    If, on the other hand, they are operating on totally 
different frequency bands, technically it is not technically 
possible for them to intercommunicate, at least directly over 
the radio, and we have to work at developing other plans and 
alternatives. That really becomes the problem even if we 
develop regional coordination systems, as was done in the D.C. 
metro area here. As the event grows and we reach further and 
further out for assistance, we are bringing in people who are 
not a part of that original plan and it becomes more likely 
that they are operating in a different frequency band and 
therefore will be unable to communicate directly when they 
arrive on scene.
    With that, in closing I want to thank you, Mr. Chairman and 
the Members of the Subcommittee, for conducting these important 
hearings and for providing me an opportunity to discuss the 
critical communications problems facing public safety agencies 
in these difficult times. APCO stands ready to work with 
Congress, the FCC, and other interested parties in resolving 
these issues as quickly and as efficiently as possible.
    [The prepared statement of Mr. Nash follows:]

   Prepared Statement of Glen Nash, President, Association of Public-
          Safety Communications Officials-International, Inc.
    Thank you, Mr. Chairman
    My name is Glen Nash. I am the President of the Association of 
Public-Safety Communications Officials-International, Inc. (APCO), and 
I am here today on APCO's behalf. I have over 29 years experience in 
the design, installation and maintenance of public safety 
communications systems and currently serve as Senior Telecommunications 
Engineer with the State of California Department of General Services. 
Please note, however, that I am here today on APCO's behalf, and not in 
any official capacity for the State of California. I also currently 
serve as Chair of the Technology Subcommittee of the FCC's Public 
Safety National Coordination Committee (NCC), and I was an active 
participant in the joint FCC/NTIA Public Safety Wireless Advisory 
Committee (PSWAC).
    APCO, founded in 1935, is the nation's oldest and largest public 
safety communications organization. APCO has over 15,000 members, most 
of whom are state or local government employees who manage or operate 
communications systems for police, fire, emergency medical, disaster 
relief, and other public safety agencies. APCO is certified by the FCC 
as a frequency coordinator for public safety mobile radio channels, and 
has long played a major role in public safety radio spectrum and 
wireless E9-1-1 issues before the Commission.
    The events of September 11 have forced all of us to re-examine our 
nation's priorities, especially those related to our police, fire, EMS 
and other agencies charged with the protection of life, health, and 
property. These ``first responders'' literally are the frontline troops 
not only in the domestic war on terrorism, but also in the day-to-day 
reality of living in a less than perfect society.
    Today, more than ever, our nation's public safety agencies must 
have the tools they need to perform their critical tasks. 
Communications is at or near the top of the list of those essential 
tools. Public safety communications, in turn, depends upon an adequate 
supply of appropriate radio spectrum dedicated for public safety use.
    Public safety agencies use radio communications not only to 
dispatch personnel to the scene of an incident, but also as a link 
between field personnel and a resource center so that they can request 
additional assistance and/or information to properly handle the 
incident. Of particular importance is on-scene portable radio 
communication between various public safety personnel responding at the 
scene of a crime-in-progress, fire, flood, explosion, vehicle accident, 
or other emergency. This is true whether we are talking about the 
events such as those of September 11; emergencies associated with 
floods, earthquakes and weather-related emergencies; or day-to-day 
responses to crime, fire, accidents and medical emergencies. Now, with 
new Homeland Security responsibilities being placed upon state and 
local public safety agencies, the need for effective radio 
communications is heightened even more.
    Unfortunately, for far too many years, public safety agencies 
across the nation have faced a severe shortage of radio spectrum 
available for their communications systems. These shortages were 
documented in 1996 by the Public Safety Wireless Advisory Committee 
(PSWAC), a blue-ribbon committee created by NTIA and the FCC. The PSWAC 
Report, which was adopted on September 11, 1996, determined that public 
safety users would require an additional 97.5 MHz of radio spectrum by 
2010, and would need approximately 24 MHz within five years of the 
Report. Unfortunately, exactly five years later, on September 11, 2001, 
that 24 MHz was still not available for nationwide public safety use, 
for reasons that I will discuss in a moment.
    The lack of sufficient radio spectrum for public safety has several 
significant consequences. In many metropolitan and other densely 
populated areas, public safety agencies face dangerous congestion on 
their radio systems. In some instances, public safety agencies operate 
with hundreds of users per channel, far more than is safe under 
``normal'' day-to-day circumstances, let alone major emergencies. 
Demand for channel capacity has been increasing with population growth 
and density. Now, with new Homeland Security responsibilities being 
placed on public safety personnel, there will be even greater demand 
for public safety spectrum.
    Inadequate spectrum also prevents public safety agencies from 
implementing new communications tools, such as wide area mobile data 
systems that can provide law enforcement officers, firefighters, and 
EMS technicians with a wealth of critical on-scene data. This includes 
not only high speed text delivery (such as criminal background 
information), but also, with sufficient spectrum, high resolution 
images such as mug shots, fingerprints, and building diagrams. While 
the FCC recently allocated spectrum in the 4.9 GHz band for certain 
public safety data and video functions, use of that band will be 
limited to relatively short distance transmissions. The 4.9 GHz band is 
not expected to provide a spectrum home for wide-area, mobile data 
systems.
    The lack of spectrum also has a direct and significant impact on 
interoperability. All too often, public safety personnel from different 
agencies responding to the same emergency cannot communicate with each 
other, because they operate on incompatible, non-interoperable radio 
systems. The lack of interoperability is generally the result of 
different agencies being forced to operate on different radio frequency 
bands. The most effective way to address that problem is to migrate 
agencies in the same geographic area to common, or at least compatible, 
radio frequency bands. Unfortunately, that's not possible in many areas 
as there is not enough spectrum in any one band to accommodate all, or 
even most, of the public safety users in the region. New allocations, 
especially if adjacent to an existing public safety spectrum 
allocation, would greatly enhance interoperability with existing users, 
while at the same time providing capacity for new, multi-agency, multi-
jurisdictional radio operations.
    Congress tried to address some of these issues in 1997, when it 
required the FCC to allocate 24 MHz of spectrum for public safety 
purposes from the 746-806 MHz band (TV channel 60-69). This was 
consistent with the 1996 recommendations of the Public Safety Wireless 
Advisory Committee. The FCC then did its part. It reallocated TV 
channels 63, 64, 68, and 69, for public safety and adopted rules to 
promote interoperability among all users of the band and the adjacent 
800 MHz public safety bands. Indeed, the Commission allocated 
approximately 10% of the new band for nationwide public safety 
interoperability, and required that all radios in the new band be 
capable of operating on the interoperability channels. The Commission 
also adopted a digital interoperability standard (Project 25) for the 
band, to ensure that digital equipment from different manufactures 
would still be interoperable.
    However, in most of the nation's largest metropolitan areas, the 
new spectrum allocated for public safety was not available on September 
11, and will not be available until TV broadcasters on channels 63, 64, 
68, and 69 (and in many cases the adjacent channels), release those 
channels as part of the digital television (DTV) transition. The 
problem facing public safety is not only that the spectrum is not 
currently available nationwide, but also that there is no firm date for 
when the spectrum will become available. The 1997 Balanced Budget Act, 
which required the FCC to allocate spectrum for public safety, allows 
incumbent broadcasters to continue operation on TV channels 60-69 until 
December 31, 2006, or until some uncertain, future date when at least 
85% of the households in the relevant market have access to DTV 
signals.
    That 85% provision creates uncertainty as to when (or if) the 
spectrum will become available, and makes it impossible for most state 
and local governments to plan, fund, or construct systems using the 
spectrum allocated for their public safety operations. For example, the 
State of California has a tremendous need to upgrade the radio systems 
for its own agencies, but we cannot build a statewide system that does 
not include the Los Angeles and San Francisco Bay areas. Unfortunately, 
those are among the metropolitan areas where TV stations block use of 
the newly allocated public safety spectrum. Many other large public 
safety agencies across the country face the same dilemma.
    APCO has therefore joined with the International Association of 
Chiefs of Police, the International Association of Fire Chiefs, the 
National League of Cities, the National Association of Counties, the 
U.S. Conference of Mayors, and other organizations to urge that 
Congress establish an early and firm date for the newly allocated 
public safety spectrum to become available for actual operations.
    There are also important steps that the FCC needs to take. For 
example, we remain deeply concerned about the rules adopted to protect 
future public safety users of the new spectrum from interference caused 
by new commercial mobile radio services in the same band. These are 
commercial users who would receive licenses pursuant to the 700 MHz 
band auctions currently scheduled by the FCC. We do not believe that 
the interference provisions are adequate, based upon studies conducted 
by the Telecommunications Industry Association, and have petitioned the 
FCC to reconsider its rules.
    The interference that we fear in the 700 MHz band is similar in 
some respects to current interference problems that many public safety 
agencies already face in the nearby 800 MHz band. The FCC is about to 
initiate a proceeding on that issue, which includes a proposal that 
would also provide additional spectrum relief for public safety 
agencies in that band.
    Finally, I want to note that many public safety agencies will 
continue to operate in the UHF (450-470 MHz, plus, in some areas, 
portions of 470-512 MHz) and the VHF High Band (150-170 MHz) for the 
foreseeable future. Indeed, due to the low cost of equipment and good 
propagation characteristics, the VHF High Band is the most heavily used 
public safety frequency band. However, that band is extremely 
overcrowded and is in desperate need of ``breathing'' room to relieve 
congestion and facilitate wide-area interoperability plans. In that 
regard, we were pleased that Congress required the Department of 
Defense to study the potential for sharing of its nearby 138-144 MHz 
band, which we understand is lightly used in at least some portions of 
the nation. DOD has submitted a classified study to the Congress on 
this issue, and we look forward to learning more about the results of 
that study, and moving as quickly as possible towards actual sharing of 
the band with state and local government public safety agencies 
wherever feasible.
    In closing, I want to thank you Mr. Chairman and members of your 
Subcommittee for conducting these important hearings, and for providing 
me an opportunity to discuss the critical communications problems 
facing public safety agencies in these difficult times. APCO stands 
ready to work with the Congress, the FCC, and other interested parties 
in resolving these issues as quickly and efficiently as possible.

    Senator Inouye. Thank you very much, Mr. Nash.
    May I now recognize Mr. Crotty.

  STATEMENT OF PAUL CROTTY, GROUP PRESIDENT FOR NEW YORK AND 
                   CONNECTICUT, VERIZON, INC.

    Mr. Crotty. Thank you, Mr. Chairman, Senator Burns.
    My name is Paul Crotty. I am Verizon's Group President, New 
York and Connecticut, and I am pleased to be here today to 
discuss our experiences after the terrorist attack in 
September.
    On September 11th I stood at the corner of Veasey and West 
Street amidst the debris of 1 and 2 World Trade Center, which 
had collapsed by 10:00 o'clock in the morning. I saw our brave 
firefighters, police officers, and emergency medical 
technicians carrying on heroically amid utter destruction. I 
thought of our 1600 employees at 140 West Street and 500 
employees at 2 World Trade Center and prayed that they had 
escaped. We lost two employees at the World Trade Center plus 
another employee at the Pentagon.
    As horrific as that scene was, Verizon's building at 140 
West Street was still functioning. What happened at 5:00 p.m. 
changed that. 7 World Trade Center twisted on its frame and 
collapsed, and as it fell number 7 ripped out a large portion 
of the east-facing wall of our building and then collapsed into 
our cable vault.
    Our outside plant in Manhattan is below ground and in lower 
Manhattan ``below ground'' means below sea level. The 
pulverized cement and fiberglass dirt and other airborne debris 
blew into our equipment floors, covering our sophisticated 
electronic equipment with up to five inches of soot-like 
material. 7 World Trade Center's collapse into and through our 
cable vault cut up our outside cable plant like so many strings 
of spaghetti.
    Our sub-basements were flooded by ruptured water mains. 
Even after the water mains were secured, our basements 
continued to flood with the runoff from water used to fight the 
fire at 7 World Trade Center, which burned steadily for 2 weeks 
and intermittently for another 6 weeks after that.
    We have now restored service in lower Manhattan. We are in 
the process of replacing equipment at 140 West Street and 
rebuilding our outside plant.
    I have already mentioned our brave uniformed forces, but I 
would be remiss if I did not also say something about Mayor 
Giuliani and Governor Pataki. They were both outstanding in 
every way. Their presence and quiet leadership kept us going. 
They confronted danger and uncertainty with a calming and 
reassuring strength.
    Mr. Chairman, I appreciate your visit and the visit of 
other members of your Committee. It was very important to keep 
the spirits up and to keep us involved knowing that our efforts 
at Ground Zero were supported by the ranking members of the 
Congress and indeed by all citizens of the United States.
    Our building at 140 West Street contained four switches 
which had the capacity to serve a city the size of Cincinnati. 
The damage to our building was severe. Altogether we lost ten 
cellular towers along with 300,000 voice lines and 3.6 million 
data circuits affecting 14,000 businesses and 20,000 
residential customers.
    Although this was a disaster at a particular point in our 
network, the network itself continued to function. Many 
customers reacted to the tragedy by telephoning their families 
to let loved ones know they were safe. That made call volumes 
spike up to 100 percent higher than on a normal day for both 
wireless and wireline telephones. We worked with other carriers 
and we processed these volumes.
    Verizon had the process and people in place to deal with 
the restoration job of this magnitude. We approached this in an 
organized fashion. Our first priority was to restore service 
immediately for emergency services--police, fire, medical, 
governmental agencies. To accomplish this, we harnessed our 
emergency preparation planning, we quickly mobilized a team and 
set our plan in motion. We were able to take advantage of 
redundancy that was built into the network to accomplish 
immediate restoration of critical functions.
    Mr. Cangemi has already mentioned the Office of Emergency 
Management, which moved. It had its office at 7 World Trade 
Center. When 7 World Trade Center collapsed, it was relocated 
first to the police academy and then to Pier 92 on the west 
side of Manhattan.
    Within 36 hours we had installed over 500 voice lines in 15 
T-1's, so that when the Mayor put the Emergency Management 
Center back in operation it had representatives from every 
city, State and Federal agency that was involved in responding 
to the disaster, along with other agencies such as the Red 
Cross and Salvation Army not-for-profits, which were also 
emergency responders.
    The city's 9-1-1 system had designed redundancy and 
automatic backup. It never failed. Not a single call was missed 
on September 11th. In addition, our optical network rerouted 
90,000 data circuits immediately.
    Our second priority was to do the work necessary for the 
New York Stock Exchange and the Mercantile Exchange to reopen 
on September 17. In the weeks following we restored the 
American Stock Exchange. When the New York Stock Exchange 
opened on Monday, September 17, it handled over 2 billion 
shares, a record number.
    To make this happen we had to do a number of things. First 
of all, as I indicated, Con Edison lost power. 7 World Trade 
Center also contained two sub-stations for Con Edison, and when 
7 World Trade Center collapsed we lost power throughout lower 
Manhattan. Therefore the power for our Broad Street station was 
provided by standby diesel power for a period of up to 12 days.
    Verizon also rerouted or rebuilt high-capacity data 
circuits that passed through West Street. We provisioned 1.5 
million lines and 2 million data circuits in 6 days and we 
ported more than 150,000 telephone numbers that had been 
assigned to our equipment in West Street facilities to 
equipment in other locations. We acted as systems integrators 
and project leader for coordinating efforts of suppliers, other 
carriers, major stock exchange and Security Industry Automation 
Corporation customers. We again would like to publicly thank 
the many carriers and equipment makers who went out of their 
way to share resources in that time of crisis.
    I also want to mention the extra work of Verizon's men and 
women, what worked 24 hours a day, 7 days a week, for months at 
a time. One of our major problems with our work force was 
convincing them that they had to go home at the end of the 
shift. We had tremendous cooperation from our collective 
bargaining representative, the Communications Workers of 
America.
    The end result was that Verizon got a huge amount of 
capacity to many customers and got it there quickly.
    Our third priority was to restore services to all affected 
residential and business customers. Wireless technology played 
an important part in that story. We deployed seven ``cells on 
wheels'' and 16 temporary cell sites almost immediately after 
September 11th. That allowed us to replace wireless service 
that was disrupted by damaged cell sites. Within 1 week we had 
150 percent of the capacity in lower Manhattan that we had on 
September 10th.
    We provided customers with alternatives to their regular 
service through mega-call forwarding. We made our 4,000 pay 
phones on the streets of Manhattan free for over a week and we 
brought in extra pay phones which provided free pay phone 
service in the affected area in lower Manhattan. We provided 
over 5,000 wireless phones for small business customers. We 
provided the Secret Service and other Federal agencies with 
wireless devices to help offset equipment loss when their 
offices in the World Trade Center were destroyed.
    Our business solutions group visited 900 small businesses a 
day and our emergency office in New York City's business 
recovery center was taking orders from 400 walk-in customers a 
day. We worked one on one with large business customers, 
including our wholesale customers, and with 40 carriers which 
connected through Verizon's facilities, to help them restore 
services. We opened a special office in Chinatown to help 
residence customers.
    The good news is that we were able to get our customers 
back into service quickly, in many cases through gerry-rigged 
arrangements. Much of this work will have to be redone now as 
debris is cleared from manholes and we can get into our 
underground facilities.
    While this was going on in New York, we had the similar 
attack at the Pentagon. We also had major efforts there. At the 
Pentagon we had about 40 people who operate the communications 
system pursuant to a contract with the Federal Government, a 
system that never went down, not even for a minute. The people 
there were not evacuated as the situation did not warrant it, 
and in fact two of our employees, by reporting to the Defense 
Secretary's office on the position of the fire relative to a 
critical telecommunications switch, were responsible for saving 
it. We set up mobile wireless cell sites in Arlington.
    Finally, at the plane crash site in western Pennsylvania we 
provided the additional wireline and wireless capacity needed 
by the emergency response personnel at that site.
    As to lessons learned, what did we learn from all this? 
Well, first we learned about the resiliency of our telephone 
network, Verizon's and those of other provider. They all proved 
their worth. While call volume spikes caused temporary 
difficulties, by the close of business on September 11th those 
difficulties were largely under control. Diversity of routes, 
redundancy of facilities, and experience with recoveries were 
keys to putting the right resources at the right place to 
resolve a very complex problem.
    The economy remains the biggest uncertainty in the 
aftermath of September 11th. We were already feeling the 
effects of the economic slowdown before this. We need to look 
for prudent ways to stimulate investment, innovation, and 
consumer confidence. This is particularly so in lower 
Manhattan. We are rebuilding our network and we must have users 
to make our investment worthwhile.
    We also came away from September 11th and the recovery 
efforts with new clarity on the larger issues facing the 
communications industry. First, true competition comes from 
diverse technologies, whether it is wireline, wireless, cable, 
or the Internet. With regard to telecommunications, facilities-
based competition demonstrated that it is the real competitive 
alternative, not resale of pieces of the existing network.
    The fact the service restoration in lower Manhattan 
occurred as quickly as it did demonstrates the value of large-
scale facilities-based local networks. Scale and scope matter. 
Verizon's ability to draw on the resources of a national 
company was invaluable. The value of large facilities-based 
competitors is evident. They tend to have the scale and 
experience to help the Nation recover quickly.
    Fiber, broadband, and diverse technology are crucial 
because they improve survivability. Fiber and broadband to 
large business customers works and has never been more 
important. Also, fast Internet access was vital to consumers. 
Broadband service to the home helped keep America connected and 
productive. In the crisis people were able to choose from 
several technologies to handle their communications. If 
wireless did not work, often email and Instant Messaging did, 
and if wireline did not work then often wireless would. When it 
was impossible for people to drive to their place of work, they 
could telecommunicate over broadband networks. New high-speed 
information technology--our national strength.
    With regard to security issues, Verizon gets plenty of 
practice in system recovery efforts. We have more than 1,000 
recovery efforts every year of various scale, manmade and 
natural, from airplane crashes to ice storms, major floods, 
hurricanes, and tornadoes, to trucks hitting telephone poles 
and people digging up and cutting our underground plant. Our 
experience with these situations helped make the September 11th 
recovery run effectively.
    But we had never experienced anything like this, which 
seemed to be a witch's brew of every disaster known and 
unknown, and they occurred in three separate places 
simultaneously.
    What have we learned? There are two major lessons. First, 
we need to take a fresh look at security of telecommunications 
networks, and we are already well along with that process.
    Second, the country needs to develop national policies 
related to access to critical network assets, cybersecurity, 
and the redundancy and diversity of networks. At Verizon we 
have a regular aggressive schedule of security audits and 
continual discussions with the security community about new 
threats. These practices have been the cornerstone of our 
regular cycle of security improvement and testing.
    We share information with and work closely with the 
national security and emergency preparedness agencies at the 
Federal, State, and local levels. We have complied with the 
FCC's telecommunications service priority guidelines. Agencies 
such as New York City's Mutual Aid and Restoration Consortium, 
the FBI's National Information Protection Center, the National 
Communications System, and the National Security 
Telecommunications Advisory Committee are illustrative of the 
agencies that we work with. Many of those discussions are very 
candid and involve vulnerability assessments and plans.
    Of course, we continue to work with both the FCC and our 
New York State regulatory agency, the Public Service 
Commission.
    Since September 11th Verizon has additional efforts under 
way to further improve the security, survivability, and rapid 
recovery of our networks. We have undertaken a review of which 
assets need additional hardening. That means a physical 
inventory of our 5100 central offices and hundreds of key 
buildings, with rankings for significance and thus priority 
attention for hardening. Mostly this means beefing up physical 
security, such as perimeter and entryway, some better 
monitoring, in a few cases interior partitioning.
    We have heightened attention to prevent and discover 
unauthorized cyber-intrusion. We caught and were the first to 
report a major computer virus to the National Information 
Protection Center right after September 11th. We continue our 
regular security audits that Verizon conducted even before 
September 11th and we promptly address any findings of 
noncompliance or design weakness.
    I thank the Committee and you, Mr. Chairman, for your 
attention to critical infrastructure matters, and I will try to 
answer any questions you may have further along in the program. 
Thank you.
    [The prepared statement of Mr. Crotty follows:]

  Prepared Statement of Paul Crotty, Group President for New York and 
                       Connecticut Verizon, Inc.
    Mr. Chairman, my name is Paul Crotty, and I am Group President New 
York/ Connecticut. I am pleased to be here today to discuss our 
experiences after the terrorist attack in September.
    On September 11, I stood at the corner of Vesey and West amidst the 
debris of 1 and 2 World Trade Center which had collapsed by 10 am. I 
saw our braver fire fighters and police officers and emergency medical 
technicians carrying on heroically amid utter devastation. I thought of 
our 1600 employees at 140 West Street and 500 employees at 2 World 
Trade Center and prayed that they had escaped. We lost 2 employees at 
the World Trade Center, plus another employee at the Pentagon.
    As horrific as that scene was, Verizon's building at 140 West St. 
was still functioning. What happened at 5pm changed that. 7 World Trade 
Center * twisted on its frame and collapsed. As it fell, it ripped out 
large portions of the east facing wall and then collapsed into our 
cable vault. Our outside plant in Manhattan is below ground and in 
lower Manhattan, below ground means below sea level. The pulverized 
cement and fiberglass, dirt and other airborne debris blew onto our 
equipment floors covering our sophisticated electronic equipment with 
up to 5 inches of soot-like material. And 7 World Trade Center's 
collapse into and through our cable vaults cut up our outside plant 
like so many strings of spaghetti.
---------------------------------------------------------------------------
    * 7 World Trade Center also housed 2 Con Edison substations. When 
the substations were lost, lower Manhattan lost its power. Even today, 
lower Manhattan is powered by a 13,000 volt ``extension cord'' which 
runs on the sidewalks and streets of lower Manhattan.
---------------------------------------------------------------------------
    Our sub basements were flooded by ruptured water mains. Even after 
the water mains were secured, our basements continued to flood with the 
run off from the water used to fight the fire at 7 World Trade Center 
which burned steadily for 2 weeks and intermittently for another 6 
weeks after that.
    I have mentioned our brave uniformed faces. I would be remiss if I 
did not also say something about Mayor Giuliani and Governor Pataki. 
They were both outstanding in every way. Their presence and quiet 
leadership kept us going. They confronted danger and uncertainty with a 
calming and reassuring strength.
Synopsis of Events
    Lower Manhattan. Our building at 140 West Street contained 4 
switches which had the capacity to serve a city the size of Cincinnati. 
The damage to our building was severe. Altogether, we lost ten cellular 
towers, along with 300,000 voice lines and 3.6 million data circuits--
affecting 14,000 businesses and 20,000 residential customers.
    Although this was a disaster at a particular point in our network, 
the network itself continued to function. Many customers reacted to the 
tragedy by telephoning their families, to let loved ones know they were 
safe. That made call volumes spike 100% higher than a normal day, for 
both wireless and wireline telephones. We worked with other carriers 
and processed these volumes. Verizon had the process and people in 
place to deal with restoration job of this magnitude. We approached it 
in organized focused way:
    Our first priority was to restore service immediately for emergency 
services--police, fire, medical, government agencies. To accomplish 
this, we harnessed our emergency preparation planning--we quickly 
mobilized a team and set our plan in motion. We were able to take 
advantage of redundancy that was built into the network to accomplish 
immediate restoration of critical functions.
    The City's 911 system, which had designed redundancy and automatic 
backup never failed--not a single call was missed. In addition, our 
optical network re-routed 90,000 data circuits immediately.
    Our second priority was to do the work necessary for the New York 
Stock Exchange and the Mercantile Exchange to reopen on September 17. 
In the weeks following, we restored the American Stock Exchange. When 
the NY Stock Exchange opened, it handled over 2 billion shares, a 
record number. To make that happen:

  <bullet>  As I indicated Con Ed lost power and we operated on standby 
        diesel power for 12 days at our Broad Street facility.
  <bullet>  Verizon rerouted or rebuilt high capacity data circuits 
        that passed through West Street.
  <bullet>  Verizon provisioned 1.5 million lines and 2 million data 
        circuits in six days.
  <bullet>  We ported more than 150,000 telephone numbers that had been 
        assigned to equipment in our West Street facility to equipment 
        in other locations and
  <bullet>  We acted as systems integrator and project leader for 
        coordinating efforts of suppliers, other carriers and major 
        NYSE and Securities Industry Automation Corporation (``SAIC'') 
        customers. We again publicly thank the many carriers and 
        equipment makers who went out of their way to share resources 
        in that time of crisis.

    The end result was that Verizon got a huge amount of capacity to 
many customers--and got it to them quickly.
    Our third priority was to restore service to all affected 
residential and business customers. Wireless technology played an 
important part in that story
    We deployed seven ``cells on wheels'' and 16 temporary cell sites 
almost immediately on 9/11. This allowed us to replace wireless service 
that was disrupted by damaged cell sites. Within one week we had 150% 
of the capacity in Lower Manhattan we had on September 10.
    We provided customers with alternatives to their regular service 
through mega call forwarding, 4000 free payphones and 5000 wireless 
phones for small business customers. We provided the Secret Service 
with 300 wireless devices to help offset equipment lost when their 
office in the World Trade Center was destroyed. Our Business Solutions 
Group was visiting 900 small businesses a day, and our emergency office 
in NYC's Business Recovery Center was taking orders from 400 walk in 
business customers a day. We worked one-on-one with large business 
customers, including our wholesale customers and with 40 other carriers 
which connect through Verizon facilities to help them restore services. 
And we opened a special office in Chinatown to help residence 
customers.
    The good news is that we were able to get our customers back into 
service quickly--in many cases, through jerry-rigged arrangements. Much 
of this work will have to be re-done as debris is cleared from manholes 
and we can get to underground facilities.
    Pentagon. While all this was going on in New York, there were also 
major efforts in Northern Virginia. At the Pentagon, we had about 40 
people who operate the communications system--a system, by the way, 
that never went down, not even for a minute. The people there were not 
evacuated, as the situation didn't warrant it; and in fact, two of our 
employees, by reporting to the Defense Secretary's office on the 
position of the fire relative to a crucial telecommunications switch, 
were responsible for saving it. Verizon provides service to the 
Department of Defense under WITS 2001 contract.
    We set up mobile wireless cell sites in Arlington. Finally at the 
plane crash site in Western Pennsylvania we provided the additional 
wireline and wireless capacity needed by emergency response personnel 
at those sites.
Lessons Learned
    What did we learn from all this?
    First, the resiliency of telephone networks--Verizon's and those of 
other providers--proved their worth. While call volume spikes caused 
transitory difficulties, by close of business on September 11, those 
difficulties were largely under control. Diversity of routes, 
redundancy of facilities and experience with recoveries were the key to 
putting the right resources at the right places in a complex problem.
    The economy remains the biggest uncertainty in the aftermath of 
Sept. 11. We were already feeling effects of economic slowdown before 
this. We need to look for prudent ways to stimulate investment, 
innovation and consumer confidence. This is particularly so in lower 
Manhattan. We are rebuilding our network and we must have users to make 
our investment worthwhile.
    We also came away from 9/11 and the recovery efforts with new 
clarity on larger issues facing the communications industry.
    True competition comes from diverse technologies (wired, wireless, 
cable, Internet). With regard to telecommunications, facilities based 
competition demonstrated that it is the real competitive alternative, 
not re-sale of pieces of an existing network. The fact that service 
restoration in lower Manhattan occurred as quickly as it did 
demonstrates the value of large- scale facilities-based local networks.
    Scale and scope matter. Verizon's ability to draw on resources of a 
national company was invaluable. The value of large facilities- based 
competitors is evident--they tend to have the scale and experience to 
help the nation recovery quickly.
    Fiber, broadband, and diverse technology are crucial because they 
improve survivability. Fiber/broadband to large business customerworks 
and has never been more important. Also, fast Internet access was vital 
to consumers; broadband service to the home helped keep America 
connected and productive. In the crisis, people were able to choose 
from several technologies to handle their communications--if wireless 
didn't work, often e-mail and Instant Messaging did, if wireline didn't 
work, often wireless did. When it was impossible for people to drive to 
their place of work, they could telecommute over broadband. New, high 
speed communications technologies are a national strength.
Security Issues
    Verizon gets plenty of practice in system recovery efforts. We have 
more than 1000 recovery efforts every year of various scales man-made 
and natural: from airplane crashes to ice storms, major floods, 
hurricanes and tornadoes, to trucks hitting telephone poles and to 
people digging up or cutting our underground plant. Our experience with 
these situations helped make the 9/11 recovery run effectively.
    But we have never experienced anything like this which seemed to be 
a witches brew of every disaster known--and unknown. And they occurred 
in 3 separate places, simultaneously. What have we learned? Two major 
lessons: First. we need to take a fresh look at security of 
telecommunications networks--and we're already well along on that. 
Second, the country needs to develop national policies related to 
access to critical network assets, cybersecurity, and the redundancy 
and diversity of networks.
    At Verizon, we have a regular, aggressive schedule of security 
audits, and continual discussion with the security community about new 
threats. These practices had been the cornerstone for our regular 
cycles of security improvement and testing.
    We share information with and work closely with National Security 
and Emergency Preparedness agencies--at the federal, state and local 
levels. Agencies such as NYC's Mutual Aid and Restoration committee, 
the FBI's National Information Protection Center, the National 
Communications System, and the National Security Telecommunications 
Advisory Committee are illustrative. Many of those discussions are very 
candid and involve vulnerability assessments and plans.
    Since 9/11, Verizon has additional efforts underway to further 
improve the security, survivability and rapid recovery of our networks.
    We have undertaken a review of which assets need additional 
hardening. This means a physical inventory of all 5100 central offices 
and hundreds of key buildings, with ranking for significance--and thus 
priority attention for hardening. Mostly this means beefing up physical 
security--such as perimeter and entryways, some better monitoring, and 
in a few cases interior partitioning.
    We have heightened attention to prevent and discover unauthorized 
cyber-intrusion. We caught and were the first to report a major 
computer virus to National Information Protection Center right after 9/
11.
    We continue our regular, aggressive security audits that Verizon 
conducted even before 9/11. And we promptly address any findings of 
non-compliance or design weakness.
    I thank the Committee for its attention to critical infrastructure 
matters, and I will try to answer any questions that you have.

    Senator Inouye. Thank you very much, Mr. Crotty.
    May I now recognize Ms. Harris.

         STATEMENT OF GLORIA HARRIS, VICE PRESIDENT OF 
OPERATIONS--NEW YORK, NEW JERSEY AND CONNECTICUT, AT&T WIRELESS

    Ms. Harris. Mr. Chairman, Members of the Committee: Thank 
you for the opportunity to appear before you today. I am Gloria 
Harris, Vice President, Field Operations, New York, New Jersey, 
and Connecticut, of AT&T Wireless. Today my testimony will 
focus on how AT&T Wireless responded to the events of September 
11th as well as the steps we are taking in the aftermath of 9-
11 to enhance our emergency response procedures and to make our 
wireless network as strong as it can possibly be.
    The horrific events of September 11th had a profound effect 
on our Nation's critical telecommunications infrastructure. 
AT&T Wireless' network was pushed to its limits both in New 
York and Washington, D.C. I am proud to say, however, that our 
robust system withstood the assault, thanks in great part to 
our dedicated employees who worked around the clock and who 
also refused to go home, and followed our established emergency 
procedures.
    Problems for our network began almost immediately after the 
first plane hit the World Trade Center. Although our facilities 
sustained no direct damage at that time, thousands and 
thousands of AT&T Wireless subscribers in New York and 
Washington who under normal circumstances would not be using 
their wireless service at all simultaneously picked up their 
phones and began to dial--some to contact loved ones, some to 
call for help, and some to say goodbye.
    We also began handing out wireless handsets to emergency 
workers at Ground Zero in lower Manhattan, all of whom started 
placing calls immediately to coordinate rescue and recovery 
efforts.
    Traffic on our network in Manhattan increased by as much a 
150 percent from the same day the previous week, and in certain 
areas of the city there were 360 percent more call attempts 
than AWS usually experiences.
    Around 4:00 in that afternoon, the burden to our network 
increased dramatically as a result of the complete destruction 
of Verizon's major switching office, which was directly across 
the street from World Trade Center. Not only did that Verizon 
switch serve 45 of our cell sites, the landline customers in 
the affected area had nowhere to turn for service but to their 
wireless carriers.
    Just minutes after the north tower was hit, we activated 
our highest level of disaster response with national, regional, 
and local coordination on a 24 by 7 basis. As part of these 
activities, we established a 96-port conference bridge which 
remained open day and night for weeks after September 11th. 
Although intended to manage internal resources, that bridge 
soon became an essential mechanism for communication among 
dozens of different agencies. Police, fire, and other emergency 
responders regularly dialed in order to distribute and obtain 
information about rescue and recovery activities and public 
safety dispatchers used the conference facilities to request 
our assistance in tracking callers to 9-1-1.
    Obstacles encountered in trying to restore wireless service 
in the New York area were enormous and, surprisingly, had much 
to do more with bureaucratic hassles than with technical 
problems. First we discovered that bringing equipment into 
Manhattan on September 11th and ensuing days would be a 
significant challenge because all bridges into the city were 
closed and all flights had been grounded.
    Even after equipment arrived at its destinations, however, 
we had serious problems in getting our ``Cells on Wheels,'' our 
COW's, as we call them, permitted and parked in locations that 
had line of sight to our network. While New York authorities 
were quite cooperative, certain other nearby localities wanted 
us to go through full-fledged zoning proceedings, which 
normally could take weeks or even months, before we could site 
and activate these temporary facilities.
    But perhaps the biggest obstacle to our recovery activities 
was in our attempt to obtain and retain access to Ground Zero 
for our employees, contractors, and vendor employees. This 
seemed to be primarily an issue of too little coordination 
among dozens of agencies. While the police department might let 
us bring our equipment into the area in the morning, a few 
hours later the fire marshal would deny access to the same 
equipment or require another burdensome round of paperwork.
    The final hurdle we faced was the lack of sufficient 
spectrum to support our recovery operations and the increased 
call burden. Because many customers in Manhattan had no 
wireline service and because rescue workers were using AT&T 
Wireless phones for Ground Zero communications, our network 
remained severely overloaded for weeks.
    Accordingly, on September 12th we went to the FCC and, with 
the cooperation of NextWave Communications, we requested a 
special temporary authorization to use NextWave's unused 
spectrum in the New York market. The FCC responded immediately 
and that very day we had approval to use those bands.
    By September 27th, through the addition of these channels 
as well as the deployment of COW's and the expedited 
construction of new sites, we had added enough capacity in 
Manhattan to permit almost 5,000 additional simultaneous calls. 
By the following day, we had permanently restored all but three 
of the recoverable sites.
    While our primary focus during the days surrounding 
September 11th was on averting a network disaster and 
continuing to maintain critical wireless service to public 
safety and commercial users, we were also heavily involved in 
supporting the ongoing search and recovery efforts at Ground 
Zero and the Pentagon in other ways. Immediately after 
September 11th, for example, we activated, registered, and 
handed out more than 5,000 wireless phones to approximately 50 
organizations, including the Red Cross, FEMA, the Department of 
Transportation, and the City of New York.
    In addition, together with the Wireless Emergency Response 
Team, a newly formed coalition of wireless and wireline 
telecommunications carriers and infrastructure providers, we 
equipped three-person teams with spectrum analyzers, 
directional antennas, and portable generators and sent them out 
to search for signals emanating from cell phones at Ground 
Zero.
    We also used customer records to identify all the calls 
placed to 9-1-1 from the World Trade Center and the Pentagon 
and, at FEMA's behest, called those numbers to determine if the 
callers needed further assistance. While no survivors were 
located in either location, we contacted many people who were 
thought to be missing and helped to bring closure to family 
members who lost their loved ones on September 11th.
    So the question now is where do we go from here? What have 
we learned from September 11th that could make our network 
stronger and ensure uninterrupted service during emergencies 
for both public safety personnel and our customers? Since 
September 11th AWS has taken a number of steps internally to 
ensure that we can respond effectively to a disaster on a 
nationwide level and across all critical units of our company. 
In addition, in light of the finite capacity of all 
telecommunications networks, we have been working to come up 
with a practical solution to ensure those with the greatest 
need are able to place and receive calls.
    Emergency agencies' need to communicate is obviously 
critical, but 9-11 taught us that the ability of our existing 
customers to place calls is no less important. Indeed, it was a 
wireless call that gave passengers on a plane likely bound for 
the White House or the building we are standing in right now 
the information they needed to avert an even larger disaster.
    Accordingly, we have been working cooperatively with the 
members of the wireless community and the national 
communications system to develop a plan that will give priority 
access to certain emergency personnel in times of severe 
network congestion, while at the same time reserving capacity 
for customers. We think that the wireless priority access plan 
currently being discussed goes a long way towards ensuring that 
the facilities we have are used in the most efficient and 
effective manner possible.
    Now I will spend just a few minutes suggesting how you, 
Congress, can help us in our efforts to strengthen our network. 
First, as I indicated earlier, one of the most significant 
problems we faced in attempting to restore service to customers 
and emergency workers after September 11th was coordinating 
with the dozens of Federal, State, and local agencies and 
offices to bring the necessary equipment to the affected areas, 
to obtain permits to site those temporary facilities, and to 
ensure that our employees had continual access to the equipment 
once it was in place.
    One suggestion I have to ensure smoother sailing in the 
future would be to empower FEMA or another Federal agency to 
oversee issues involving the access of essential companies, 
such as telecommunications providers like AT&T Wireless, to 
disaster areas. Should we ever face a similar circumstance--and 
I pray that we do not--the agency could distribute universal 
badges which the companies could then hand out to their 
employees as necessary.
    The next major action Congress could take to help ensure 
the development of a comprehensive wireless network is to 
assist us in our efforts to obtain more spectrum. AT&T Wireless 
is in the enviable position of having enough spectrum to 
provide services to our customers' demand through the first 
part of this decade. As we begin to roll out advanced 
technologies on a wider scale, we will require additional 
bandwidth to provide the types of services our subscribers tell 
us they want and at the same time to be able to assist public 
safety agencies with their needs.
    Much of the globally harmonized spectrum that wireless 
carriers need is woefully underutilized today by existing 
licensees in those bands and should be reallocated promptly.
    Today, based on the lessons learned from 9-11, we have 
begun to take the necessary steps to ensure that our network 
and service to our customers and emergency personnel remain 
strong for years to come. We hope that we can count on you to 
also take actions that will safeguard the wireless industry's 
continued effort to serve the public, both in times of disaster 
and in times of peace.
    Thank you for this opportunity to share our findings today.
    [The prepared statement of Ms. Harris follows:]

  Prepared Statement of Gloria Harris, Vice President of Operations--
          New York, New Jersey and Connecticut, AT&T Wireless
    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to appear before you today to discuss 
how the wireless industry's ubiquitous and robust telecommunications 
networks enhance public safety, assist emergency personnel, and permit 
crucial contact among families and friends on both a daily basis and in 
times of crisis. I am Gloria Harris, Vice President, Field Operations--
Tristate Area, of AT&T Wireless Services, Inc. (``AWS''). Today, my 
testimony will focus on how AWS responded to the events of September 
11, 2001, including how we used our existing procedures and outstanding 
personnel to avert a potential network disaster. Even as cell sites 
across New York City failed due to a wireline switch outage, and 
thousands upon thousands of callers turned on their wireless phones at 
the same time, I am proud to say that our network remained solid. I 
will also tell you about the steps AWS is taking in the aftermath of 9-
11 to enhance our emergency response procedures and to make our 
wireless network as strong as it can possibly be.
I. HOW WE RESPONDED.
    Impact on the Wireless Network. At 8:45 a.m. on September 11, 2001, 
American Airlines Flight 11 crashed into the North Tower of New York's 
World Trade Center complex. This unspeakable terrorist act was just the 
beginning of what would soon become this century's most horrific 
national tragedy. It also put an enormous strain on our nation's 
telecommunications networks, including AWS's wireless systems, which 
were crucial not only to the rescue, recovery, and law enforcement 
efforts that were immediately launched, but to the ability of American 
citizens to reach loved ones in a time of crisis.
    Between 9:00 and 10:30 a.m. on September 11, additional planes were 
piloted into the South Tower of the World Trade Center and the 
Pentagon, another plane crashed in Shanksville, Pennsylvania, and both 
World Trade Center towers collapsed. By mid-afternoon, there were power 
outages throughout lower Manhattan and six AWS cell sites were out of 
service.
    To complicate matters, thousands and thousands of AWS subscribers 
in New York and Washington, who, under normal circumstances, would not 
be using their wireless service at all, simultaneously picked up their 
phones and began to dial--some to contact loved ones, some to call for 
help, and some to say goodbye. In addition, AWS handed out wireless 
handsets to emergency workers at Ground Zero in lower Manhattan, all of 
whom started placing calls immediately to coordinate rescue and 
recovery efforts. Traffic on our network in Manhattan increased by as 
much as 150 percent from the same day the previous week, and in certain 
areas of the city there were 360 percent more attempts to make calls 
than AWS usually experienced. Our systems in Washington, D.C. and 
Pittsburgh were being used up to and beyond capacity as well.
    Around 4:00 p.m., the burden to AWS's network increased 
dramatically as a result of the complete destruction of Verizon's major 
switching office, which was directly across the street from the World 
Trade Center. Not only did that Verizon switch serve 45 AWS cell 
sites--most of which were in lower Manhattan--the landline customers in 
the affected areas had nowhere to turn for service but to their 
wireless carriers. Verizon obviously was intent on restoring service 
for its own customers and consequently was unable to reroute AWS's 
traffic from the impaired cell sites. By the evening of September 11, 
47 AWS cell sites were out of service, one cell site had been 
completely destroyed, all of lower Manhattan had sustained a complete 
commercial power failure, and wireless call volumes remained extremely 
high in light of the failure of the wireline network.
    What We Did. Notwithstanding the incredible strain of increased 
call volumes and impaired cell sites, AWS's wireless network in New 
York and everywhere else remained strong. This is due in large part to 
our ability to draw upon the lessons learned and the procedures 
developed from many years of responding to hurricanes, tornados, and 
floods, as well as planned day-long disaster simulations. Specifically, 
in every market in the United States in which it provides service, AWS 
has a disaster field office. When not needed, these offices serve as 
conference rooms or storage areas, but they are equipped with redundant 
telephone lines, back-up power sources, food and medical supplies, and 
manuals outlining the steps to be taken in disaster situations. Each of 
our disaster field offices reports to one of our eight regional 
Emergency Operations Centers, whose activities are coordinated by AWS's 
National Emergency Operations Center in Bothell, Washington. Clearly, 
no established procedures could have prepared us for the events of 
September 11, but they did enable AWS to avert a potentially 
catastrophic network failure.
    Just minutes after the North Tower was hit, AWS activated its 
highest level of disaster response. AWS's National Emergency Operations 
Center coordinated efforts at the national, regional, and local levels 
by identifying all available personnel and equipment to support 
recovery and repair activities in New York and Washington, D.C. We also 
set up a regional staging ground in Paramus, New Jersey, and used that 
location for the delivery of portable generators, network equipment, 
and ``Cells on Wheels''--or ``COWs''--from across the country. Many of 
our Manhattan employees were asked to report to a central disaster 
field office, where they were accounted for and where they began 
preparing for cell site recovery.
    In addition, on September 11, AWS established a 96-port conference 
bridge to manage technical resources among our national and regional 
operational centers and the affected disaster field offices. That 
bridge, however, which remained open day and night for weeks after 
September 11, was not used solely by AWS personnel. Rather, police, 
fire, and other emergency responders regularly dialed in to the bridge 
in order to distribute and obtain information about rescue and recovery 
activities. Similarly, public safety dispatchers used the conference 
facilities to request AWS's assistance in tracking callers to 911. As 
it turned out, AWS's conference bridge was an essential mechanism for 
communication among dozens of different agencies, as well as a way for 
AWS to coordinate its own internal recovery efforts.
    AWS's primary activity on September 11 and the following days was 
to assess the extent of the impairment to our service in New York and 
Washington, D.C. and to prioritize service restoration efforts. Since 
we could not rely on Verizon to install new facilities for us or to 
reroute traffic from its destroyed lower Manhattan switch, we had to 
figure out alternate ways to provide service in the areas around the 
impaired cell sites. Initially, this was accomplished by the 
mobilization of COWs or by adding additional equipment and capacity to 
nearby cell sites.
    Bringing equipment into Manhattan on September 11 and the ensuing 
days, was a significant challenge because all bridges into the city 
were closed and all flights had been grounded. Accordingly, we worked 
with the New York City Office of Emergency Management and the Mayor's 
office to obtain permits or waivers to carry our equipment over the 
closed infrastructure and to secure escorts for the trucks.
    We also faced serious obstacles in getting the COWs permitted and 
parked in locations that had a line-of-site to our network. While New 
York authorities were quite cooperative, certain other nearby 
localities wanted us to go through full fledged zoning proceedings, 
which normally could take weeks or even months, before we could site 
and activate these temporary facilities. AWS personnel, however, worked 
around the clock to obtain approvals from local authorities, establish 
microwave links, and test the temporary facilities. Within 21 hours 
after deployment, AWS activated its first COW in Liberty State Park in 
Jersey City, New Jersey. Shortly thereafter, a second COW was sent to 
Brooklyn to further support Manhattan's network capacity. And, at the 
Pentagon's request, we deployed a third COW to the Pentagon. 
Ultimately, AWS activated a total of 17 COWs: 15 in New York, one in 
Washington, D.C., and one in Pennsylvania. In addition, AWS deployed 12 
portable generators to support the cell sites without commercial power.
    Over the next several days, AWS brought 26 technicians from other 
AWS markets across the country to assist in New York, where the network 
was the most impacted. The technicians worked to integrate COWs into 
the permanent infrastructure, repaired AWS's damaged equipment, 
implemented a solution to permit law enforcement wiretapping, and 
recovered court-ordered surveillance systems used by law enforcement 
agencies. In addition, at the request of the New York Police 
Department, network engineers initiated, coordinated, and implemented 
the addition of over 6,000 emergency voice mail message hours in 
Queens, Manhattan, and Rochelle Park, thereby increasing the number of 
voice mail messages allowed in subscribers' mailboxes.
    Perhaps the biggest obstacle to our recovery activities was in our 
attempts to obtain--and retain--access to Ground Zero for our 
employees, contractors, and vendor employees. This seemed to be 
primarily an issue of too little coordination among dozens of state and 
local agencies. While the police department might let us bring our 
equipment into the area in the morning, a few hours later, the fire 
marshal would deny access to that same equipment or require another 
burdensome round of paperwork. Verizon and Con Edison apparently did 
not encounter these difficulties because they were considered 
utilities, while AWS was not.
    On September 11, the most immediate danger to our network was the 
enormous increase in calls being placed by our customers and emergency 
workers. During the peak of the crisis, we instituted load shedding 
procedures by deactivating non-essential features on a number of 
switches, such as Caller ID, performance measurement capability, and 
fraud detection, to avoid a complete crash of our New York system. The 
result was similar to that achieved by shutting windows on a personal 
computer--it helped provide more capacity for traffic routing. While 
there nevertheless were periods during the day in which accessing our 
network required multiple attempts, the system remained solid.
    It quickly became clear to AWS, however, that it required 
additional spectrum to support recovery operations and the increased 
call burden. Accordingly, on September 12, AWS, with the cooperation of 
NextWave Communications, obtained a special temporary authorization 
from the Federal Communications Commission, which allowed it to access 
10 MHz of unused spectrum licensed to NextWave in the New York market. 
By September 27, through the addition of these channels, as well as the 
deployment of COWs and other temporary equipment, and the expedited 
construction of new sites, AWS had added enough capacity in Manhattan 
to permit almost 5,000 additional simultaneous calls. It also added 630 
new voice paths in Washington, D.C. by September 14, and 158 voice 
paths in Pennsylvania by September 12. These new channels provided the 
necessary capacity to compensate for the site losses at Ground Zero and 
to accommodate the additional call volume around the White House, the 
Pentagon, and the crash site in Shanksville, Pennsylvania.
    At the same time as it was activating COWs and adding equipment at 
adjacent cell sites in the affected areas, AWS was performing surveys 
of all 47 lost cell sites to determine how service could best be 
restored on a permanent basis. By September 28, AWS had restored all 
but three of the recoverable cell sites using microwave facilities or 
AWS's own backhaul facilities, as well as working with Verizon to 
reroute traffic.
    AWS's rescue efforts. While AWS's primary focus during the days 
surrounding September 11 was on averting a network disaster and 
continuing to maintain much needed wireless service to public safety 
and commercial users, it also supported the ongoing search and recovery 
efforts at Ground Zero and the Pentagon in other ways. Immediately 
after September 11, for example, AWS activated, registered, and handed 
out more than 5,000 wireless phones to approximately 50 organizations, 
including the Red Cross, the Federal Emergency Management Agency 
(``FEMA''), the Department of Transportation, and the City of New York. 
With these phones, AWS donated over 1.3 million minutes of airtime 
usage. In addition, AWS waived all airtime charges for calls made and 
received on September 11 by east coast customers between Massachusetts 
and Virginia. AWS employees also worked around the clock at phone 
distribution and recharging centers located near the disaster areas. 
Similarly, AWS coordinated the delivery of safety kits, radios, 
goggles, breathing filters, gloves and radio equipment to the impacted 
areas to sustain its own efforts and to support local emergency 
response teams in their recovery efforts.
    To aid in the various search and rescue efforts, AWS joined the 
Wireless Emergency Response Team (``WERT''), a coalition of wireless 
and wireline telecommunications carriers and infrastructure and 
equipment providers. AWS allocated channels for the WERT activities and 
donated spectrum analyzers to support recovery missions. Both in 
conjunction with WERT and on its own initiative, AWS also established 
three-person teams of AWS technicians to assist emergency response 
personnel in searching for possible survivors in the World Trade Center 
rubble. Each team, equipped with a spectrum analyzer, a directional 
antenna, and a portable generator, was sent out to search for signals 
emanating from cell phones at Ground Zero. Tragically, these teams 
found no survivors--only phones that had been left on by WTC workers.
    In addition, AWS assisted FEMA in its efforts to locate those lost 
in the World Trade Center and the Pentagon by providing them with 
customer information that detailed which customers had placed calls 
from inside the Towers, the Pentagon, and nearby buildings. We 
identified all the calls placed to 911 from those locations and 
proceeded to call back each calling party to determine if they needed 
further assistance. While no survivors were located in either location, 
AWS contacted many people who were thought to be missing and helped 
bring closure to family members who lost their loved ones on September 
11.
    AWS also supported law enforcement personnel and kept rescue teams 
from danger by discrediting false reports. In addition, AWS provided 
U.S. Marshals with network information and frequencies for the 
equipment used to help locate cellular calls. In conjunction with these 
efforts, AWS provided guidance to 911call centers by giving 
recommendations for trapped survivors' cell phone usage to conserve 
battery power and maintain the best possible signal.
II. WHERE DO WE GO FROM HERE?
    As the foregoing shows, given its existing procedures, training, 
and outstanding personnel, AWS was in a very good position to respond 
to the 9-11 crisis from a network operations standpoint. Despite the 
loss of 47 cell sites, largely due to the destruction of Verizon's 
wireline switch at Ground Zero and an incredible increase in calls on 
September 11 and the following days, AWS kept its network up and 
running, obtained additional spectrum, added temporary cell sites, and 
addressed urgent requests for service, equipment, and facilities from 
displaced residential and business customers, as well emergency 
response agencies and utility workers.
    9-11 also taught AWS, however, that there are many ways in which it 
could improve its emergency procedures and be better prepared for 
disasters of any sort that impact the nation's vital telecommunications 
infrastructure. Therefore, as soon as the initial crisis had subsided 
in the days following September 11, AWS personnel from all areas of the 
company got together to brainstorm about what had gone wrong, what had 
gone right, and what it should do from that day forward to make use of 
the lessons learned from 9-11.
    AWS Crisis Management Team. Although, as described above, AWS had 
in place on September 11 a multi-level disaster response team that was 
able to deploy quickly and respond efficiently to dozens of network 
outages and other problems, we came to the conclusion that our existing 
procedures were focused too heavily on just the operational part of our 
business. For that reason, we have now created a Crisis Management Team 
that operates at the highest levels and covers all functions of the 
company. This team has representatives in every AWS market, company 
vice presidents at the regional level, and AWS's Chief Operating 
Officer at the head. Personnel from customer service; environmental, 
health and safety; financial; human resources; legal; marketing; real 
estate; insurance, as well as network operations and every other 
corporate unit of AWS participate in this group and bring their 
particular expertise and interests to the table. Already, we have 
established business recovery plans for each critical unit of the 
company. We believe that our Crisis Management Team will help ensure 
that AWS can respond effectively to a disaster on a nationwide and 
business-wide level.
    Priority Access. One thing 9-11 made abundantly clear is that 
wireless phones are crucial to the nation's ability to communicate 
during a disaster. Wireless service allowed people trapped in buildings 
to call for help and, in some cases, to call their loved ones for the 
last time, allowed passengers on a plane likely bound for the White 
House--or the building we are in right now--to obtain information in 
time to avert an even larger disaster, and allowed residents of New 
York, Washington, D.C., and across the nation to let their sons, 
daughters, husbands, and wives know they were safe. Wireless phones 
also were essential for firefighters, police, and other emergency 
response personnel in those cities to coordinate their rescue efforts, 
and for utility workers to coordinate their repair and salvage efforts.
    In light of the limited capacity of any telecommunications system, 
it is necessary for carriers to balance competing demands for network 
time. Emergency agencies' need to communicate during a crisis obviously 
is crucial, but, as we discovered on September 11, the ability of AWS's 
existing customers--workers, parents, airline passengers--to speak to 
each other and to call for help was no less important. Accordingly, 
since September 11, AWS has been working to come up with a practical 
solution to ensuring that those with the greatest need are able to 
place and receive calls. To this end, AWS, together with other members 
of the wireless community and the National Communications System have 
been working cooperatively to develop a plan that will give access to 
the next available wireless voice channel to certain National Security/
Emergency Preparedness personnel in times of severe network congestion, 
while at the same time reserving capacity for customers.
    Obviously, no network can be built to a capacity to accommodate all 
customers and emergency agencies during disasters of the magnitude 
experienced on September 11. However, we want to ensure that the 
facilities we do have are used in the most efficient and effective 
manner possible. We think that the wireless Priority Access Plan 
currently being discussed goes a long way toward accomplishing that 
goal.
    Need for Government Assistance. AWS is taking all the steps it can 
in preparing the company to respond to disasters--both natural and 
manmade--that affect the ability of U.S. citizens to communicate. We 
believe that the procedures we are establishing today will make us 
better able to coordinate across all functions of the company in order 
to patch holes blown in our network as well as respond to customer and 
government problems quickly. There are a number of issues beyond our 
control, however, that, if not addressed, have the potential to make 
these efforts significantly less effective. Accordingly, we are asking 
Congress and federal agencies to help ensure that wireless carriers are 
able to obtain access to disaster sites, have sufficient spectrum to 
meet future consumer demands, and that they can site towers 
efficiently, all of which are necessary to create the robust networks 
required to withstand, and recover rapidly from, any type of disaster.
    First, as indicated earlier, one of the most significant problems 
we faced in attempting to restore service to customers and emergency 
workers after September 11 was coordinating with dozens of federal, 
state, and local agencies and offices to bring necessary equipment to 
the affected areas, to obtain permits to site those temporary 
facilities, and to ensure that our employees had continual access to 
the equipment once it was in place. One suggestion we have to ensure 
smoother sailing in the future would be to empower FEMA or another 
federal agency to oversee issues involving the access of essential 
companies, such as telecommunications providers like AWS, to disaster 
areas. Should we ever face similar circumstances (and we pray we do 
not), that agency could distribute ``universal'' badges, which the 
companies could then hand out to their employees as necessary.
    Second, the primary constraint on the development of a 
comprehensive wireless market is the lack of adequate spectrum. AWS is 
in the enviable position of having enough spectrum to provide the 
services our customers demand for the first part of this decade. As we 
begin to roll out advanced technologies on a wider scale, however, we 
will require additional bandwidth to provide the types of services our 
subscribers tell us they want and at the same time be able to assist 
public safety agencies with their needs. The government's primary role 
in the development of voice and broadband wireless networks--one which 
only it can fulfill--is to ensure that spectrum that meets the 
technical and practical needs of carriers is available. Additional 
bandwidth is absolutely essential if the wireless industry is to be 
able to meet future consumer needs, much less respond to such needs 
during times of disasters.
    Much of the globally harmonized spectrum that AWS and other 
wireless carriers need is woefully underutilized by existing licensees 
in those bands today. Unfortunately, however, the process for 
reallocating such spectrum is moving slowly and unevenly. The Federal 
Communications Commission has declined to make certain fixed wireless 
bands available to existing mobile operators and, despite the failure 
of the mobile satellite service (``MSS'') industry to use even a 
fraction of the spectrum currently allocated to it, it continues to ask 
the agency to license more MSS operators. It also remains unclear if or 
when additional spectrum used by the Department of Defense and other 
federal agencies could be freed up for commercial use.
    In this time of bandwidth scarcity, it is unreasonable to let 
spectrum lie fallow. There are dozens of wireless carriers today that 
would willingly spend billions of dollars for the spectrum held--but 
barely used--by some current satellite and broadcast licensees and 
government agencies, and would construct the networks and serve 
customers immediately. If 9-11 shows anything, it is that the wireless 
infrastructure is no longer a luxury service or merely a backup network 
to the facilities other carriers have in the ground and strung on 
poles. Rather, it is a vital, robust, and primary means of 
communication everyday, and especially in times of crisis. Accordingly, 
AWS respectfully requests that Congress to do everything within its 
power to ensure that spectrum is distributed in a manner that permits 
the wireless industry to grow and to create the strong networks the 
country needs.
    Finally, while insufficient spectrum remains one of the greatest 
barriers to wireless deployment, the inability of wireless carriers to 
site the towers and other facilities they need to provide such service 
without unreasonable delay or expense also remains a huge obstacle. 
Although Congress has directed federal agencies to make federal 
property available for wireless telecommunications siting, the agencies 
often delay approval of applications for unreasonable periods of time 
or attempt to collect excessive fees for the use of federal lands. 
Similarly, localities regularly ignore Congress's admonition that they 
not use their zoning authority to prohibit the provision of wireless 
service. It can sometimes take years to site a tower and the costs of 
zoning hearings and litigation are often enormous. These delays and 
expenses not only affect the quality of service for consumers today, 
they reduce AWS's ability to deploy the redundant facilities needed to 
respond to the loss of cell sites in disasters.
    Although Congress has made it clear to federal, state, and local 
agencies that they should not stand in the way of wireless deployment, 
apparently the message needs to be stronger. Accordingly, AWS urges 
Congress to set explicit guidelines for the amount of time an agency 
can take to respond to a siting request and for holding hearings on 
that request. In addition, we ask Congress to ensure that the fees the 
agency charges for use of the government property are truly just and 
reasonable.
    Misleading public safety ``solutions.'' Since September 11, a 
number of parties have come forward with alleged ``solutions'' to the 
problems faced by emergency response agencies in communicating during 
crises. Not surprisingly, each of these plans requires the government 
to bestow upon the proposing party free and exclusive spectrum without 
having to go through the process of competitive bidding like similarly 
situated carriers. In addition--and not surprisingly again--none of 
these proposals provides a real answer to public safety's 
communications problems.
    One recent proposal, for example, which has been presented to the 
FCC by Nextel Communications Inc., purports to address interference 
between public safety operations and commercial systems by swapping 
various channels in the 800 MHz band. Although this plan would provide 
Nextel with more desirable contiguous spectrum--including an entirely 
gratuitous 10 MHz of MSS spectrum--it does not completely resolve any 
interference issues because public safety radios would still need to be 
redesigned to filter out interfering signals. More significantly, 
however, Nextel's proposal would leave hundreds of private radio 
licensees out in the cold--either paying to relocate their operations 
to bands with poorer propagation characteristics or lack of available 
equipment, or operating on a secondary basis to public safety systems. 
As even the public safety community recognizes, private radio operators 
provide crucial telecommunications capabilities to gas, electric, 
water, and other utility companies, which work side by side with 
emergency response teams during disasters. It makes no sense to curtail 
utilities' ability to communicate, or require them to expend 
substantial sums to relocate, to remedy isolated instances of 
interference that can largely be resolved by better design of public 
safety radios and the cooperation of affected CMRS providers.
    Similarly, certain MSS licensees are now attempting to convince the 
FCC that their satellite systems are capable of enhancing public 
safety, homeland defense, emergency service, and military systems in 
rural areas . . . but . . . only if the agency allows them to use the 
satellite spectrum they received for free to compete as terrestrial 
wireless providers in urban markets. It is not at all clear why these 
licensees think they will have any more success in sustaining a rural-
only satellite business (and thereby promoting public safety in rural 
areas) than they have had thus far, when virtually all customers and 
revenue would come from their (entirely separate) urban terrestrial 
operations. It is clear, however, that these licensees expect to use 
the ORBIT Act, which precludes the auctioning of satellite spectrum, as 
a means to use their free spectrum to fulfill their terrestrial 
aspirations. In other words, MSS licensees plan to use free spectrum to 
compete against companies that paid billions of dollars for their 
licenses. Rather than permit spectrum allocation and auction decisions 
to be based on dubious, at best, public safety promises, AWS urges 
Congress to clarify that the ORBIT Act may not be expanded beyond all 
semblance of its original meaning.
                                 ______
                                 
    September 11 taxed resources of all telecommunications carriers in 
the United States far beyond what we had ever expected or planned for. 
Nevertheless, we are proud to say that AWS's established procedures, 
robust facilities, and dedicated employees allowed it keep its network 
up and running and to restore impaired service in record time. They 
also allowed us to devote resources directly to the emergency rescue 
and recovery efforts underway in New York and Washington, D.C.
    Today, based on the lessons learned from 9-11, we have begun to 
take the steps necessary to ensure that our network--and service to 
customers and emergency personnel--remain safeguarded in the event of 
almost any disaster. Many of these activities are internal to AWS or 
involve coordination and cooperation between the wireless and public 
safety communities. The intervention of Congress, however, is 
absolutely critical to our ability to obtain the spectrum and site the 
redundant tower and transmission facilities that are needed to create 
truly robust wireless networks. We hope that we can count on you for 
this help.

    Senator Inouye. Thank you very much, Ms. Harris.
    Now may I call upon Ms. Herda.

          STATEMENT OF LARISSA HERDA, CHAIRMAN, CHIEF 
      EXECUTIVE OFFICER AND PRESIDENT, TIME WARNER TELECOM

    Ms. Herda. Thank you, Mr. Chairman. Mr. Chairman, Members 
of the Subcommittee: My name is Larissa Herda. I am Chairman, 
CEO, and President of Time Warner Telecom, and I want to thank 
you for the opportunity to talk to you today about what can be 
done to enhance the reliability and robustness of the Nation's 
communications network.
    Before I tell you who we are, I would first like to tell 
you who we are not. We are not Time Warner Cable, we are not 
AOL, nor are we a subsidiary of AOL Time Warner. We have 
nothing to do with movies, entertainment, Bugs Bunnie, or 
Roadrunner. AOL Time Warner is a large shareholder, but they do 
not provide funding to our company and they do not manage our 
business. We are a separately managed, separately publicly 
traded company.
    Time Warner Telecom is actually one of the few viable 
companies that are competitive local providers providing 
telecommunications services over our own fiber networks in a 
local metro area. Today we provide service in 44 markets across 
the country serving 21 States.
    In my testimony today, I will provide a brief summary of 
our experience during the September 11th attack. I will also 
explain how the existence, design, and operation of our network 
provides essential disaster prevention and recovery solutions 
to the public and the private sector business customers. I will 
offer my recommendations as to the types of public policy 
decisions that will ensure that Americans have access to a 
robust and reliable communications network.
    The terrorist attack on September 11th not only reinforced 
how essential communications are in a time of crisis, but it 
also raised important questions about the capabilities and 
durability of our Nation's telecommunications infrastructure. A 
halt in communications would cripple many elements of everyday 
life. Time Warner Telecom was instrumental in restoring 
communications service to the public and private sector after 
the 9-11 attack. Our network fortunately was only minimally 
damaged during the attack. Because of our significant fiber 
investment and the redundancy and diversity that we built into 
our network, none of our customers that were riding exclusively 
on our fiber network were affected. Nobody lost service.
    Unfortunately, as Mr. Cangemi indicated earlier, New York 
City Hall did lose phone service following the attacks and, 
although we were not serving them at the time--we did not 
actually have fiber infrastructure into their building at the 
time, my team, working day and night--as my fellow panelists 
from AT&T Wireless and Verizon said, I do not think any of 
these technicians ever left during that time. It was really 
amazing, the amount of work that these people went through, and 
my team as well. They worked day and night pulling fiber into 
the building and they were able to install 300 phone lines for 
city hall in less than 48 hours in, obviously, a very difficult 
and dangerous environment. They had to wear respirators and 
climb many stairs to do it.
    Turning up this type of service, just to give you some 
perspective, would normally take a minimum of, well, under 
optimal situation maybe 30 to 90 days, because of the need to 
acquire permits and to construct facilities in the right of way 
and to gain building access. So you have to gain building 
owner's permission generally to enter the buildings.
    If our fiber had already been in the building, we could 
have installed service within a few hours, and in fact we had 
many customers who had lost service from their other providers 
and we were able to turn up their services almost immediately 
that day and in days following that.
    Additionally, we worked with the Department of Information, 
Telephone and Technology, Mr. Cangemi's organization to 
identify other municipal offices that needed service restored. 
I can honestly say there was a tremendous amount of cooperation 
between all the carriers that were functioning in the city that 
day. In such a dramatic situation, I think it was clearly 
beneficial to have multiple providers in the market to be in a 
position to be able to restore the critical services.
    Many businesses--prior to September 11th many businesses 
understood the value of building redundancy and diversity into 
their communications data systems. But obviously, since 
September 11th they are much more focused on that today.
    The best way in our opinion to minimize disruption of 
critical infrastructure is to avoid having a single point of 
failure through diverse and redundant network facilities. 
Customers can obtain optimally--they can obtain optimal 
diversity by obtaining services from two different facilities-
based providers. By doing so, customers decrease the likelihood 
of complete service outage if one of their competing carriers' 
services goes down. Also, having an established relationship 
with more than one carrier facilitates the replacement of 
services.
    Since 9-11 we have increased security at all of our 
facilities, implemented more thorough disaster prevention and 
recovery plans, and presented a series of seminars to educate 
the business community on the value and process of building 
redundancies into their communications systems. But most 
importantly, we have always constructed our network in a manner 
designed to eliminate single points of failure.
    To illustrate this, you all should have a diagram of our 
network here that will explain our network architecture. On 
this diagram there are four squares in each of the corners of 
the page that represent our central offices. This one is 
specific to Manhattan, but our networks pretty much look like 
this in every city that we go into. You can see the fiber 
distribution rings coming out from each of the central offices. 
There are distribution rings to serve customers, to serve 
carriers, to connect up to the local exchange offices. Then 
there is a big ring, a big backbone ring that connects up all 
of these offices as well.
    If there is a fiber cut in any of these locations, services 
are automatically rerouted within 50 milliseconds, which is 
essentially faster than the blink of an eye, and customers do 
not experience an outage. In fact, between the two bottom 
central offices, 60 Hudson and 23rd Street, we did have a fiber 
cut on September 11th. However, none of our customers lost 
service because the technology kicked in, the diversity worked, 
and we are obviously very thankful for that.
    The ability to access more than one facilities-based 
carrier is the best way to minimize disruption to critical 
infrastructure and reduce down time and loss of major business 
functions in the event that there is a service disruption that 
cannot be avoided.
    Government can help ensure that public and private sectors 
have access to these services by reducing the barriers to 
construction that currently exist. Many customers want network 
diversity, but too often we are not able to meet that demand 
because we cannot get permits that we need to access the right 
of way from the municipalities or we cannot get the building 
owners to give us permission to enter the buildings in a timely 
and cost effective manner.
    These two barriers of construction are a problem for us 
because they limit our ability to grow our business. But they 
also restrict access to the public good and deny businesses the 
ability to purchase critical services from their provider of 
choice.
    While I encourage you to address these general issues in 
the marketplace, there are some things that the government can 
do very easily today to help us address some of the issues. 
Number one, they can require that the Federal Government--that 
they need to obtain service from at least two different 
facilities-based providers in each of their buildings whenever 
that is possible. Number two, only enter into lease agreements 
with landlords that will allow other telecommunications 
providers into the building that are either selected by the 
Federal Government or any other tenant in the building and to 
allow them to have physical access into the building promptly 
and at fair rates on reasonable and nondiscriminatory terms. It 
is my understanding that these conditions can be added through 
the Federal telecommunications procurement process and that can 
be done now by issuance of an executive order.
    In conclusion, the need for diversity highlights the 
important benefits of a competitive telecommunications market. 
There is no question that the telecom industry has been 
affected by the downturn of the economy, but the need for 
competition is more important now than really ever before. 
Businesses and government offices need access to diverse 
networks. They need quality services at affordable prices, 
policies that promote competition are critical, and strict 
enforcement of the 1996 Act remains the most important tool 
that the government has to encourage the competition.
    Setting aside the other advantages of competition, the 
attacks of September 11th and the demonstrated support by the 
competitive telecom entrants such as Time Warner Telecom and 
the ability of all the carriers that were involved, including 
obviously the tremendous job done by the incumbent in restoring 
those critical services, proves the strategic value of 
competitive fiber facilities-based providers.
    I want to thank you for the opportunity to testify before 
you today and I am happy to answer your questions.
    [The prepared statement of Ms. Herda follows:]

Prepared Statement of Larissa Herda, Chairman, Chief Executive Officer 
                   and President, Time Warner Telecom
    Mr. Chairman and Members of the Subcommittee:
    On behalf of Time Warner Telecom Inc. I would like to thank the 
committee for the opportunity to talk to you today about the impact the 
September 11th disaster had on the nation's communications 
infrastructure. My name is Larissa Herda and I am the Chairman, 
President and CEO of Time Warner Telecom (``TWTC''), which has grown to 
be one of the largest new competitive entities in the 
telecommunications industry. We exist today because of the pro-
competitive policies adopted in the Telecommunications Act of 1996. We 
are unique in a number of respects.
    TWTC builds its own local and regional fiber optic networks and 
delivers ``last-mile'' broadband data, dedicated Internet access, and 
voice services to small, medium and large businesses. We provide 
service to a diverse customer base across the country. The Company 
currently serves business customers in 44 U.S. metropolitan areas. 
Since the passage of the 96 Act, we have invested more than $2.0 
billion in building a network infrastructure and have created over 
2,500 high-tech jobs nationwide.
    The terrorist attacks on September 11 not only reinforced how 
essential communications is in times of crisis, but also raised 
important questions about the capabilities and durability of our 
nation's telecommunications infrastructure. As executives and 
governments across the world now attempt to anticipate and prevent 
similar disasters, the imperative of a sound and resilient 
communications infrastructure has moved to the forefront of national 
consciousness, as a halt in communications would bring to a standstill 
airlines, the stock exchange, banks, television, radio to name just a 
few elements of everyday life.
    In my testimony today I will provide a brief summary of TWTC's 
experience following the September 11th attack, explain how the of the 
existence, design and operation of our network provides essential 
disaster prevention and recovery solutions to public and private sector 
business customers and offer my recommendations as to the types of 
public policy decisions that will ensure that Americans have access to 
a robust and reliable communications network.
SEPTEMBER 11, 2001  New York City
    Time Warner Telecom was instrumental in restoring communications 
service to the public and private sector after the 9.11 attack. Our 
network, fortunately, was only minimally damaged by the attack. Because 
of our significant fiber investment, and the redundancy and diversity 
that we built into our network, none of the customers that were 
exclusively on our network lost service. Unfortunately, New York's City 
Hall did lose its phone service following the attacks. Although TWTC 
was not providing service to the city building at the time, my team, 
working day and night pulling fiber into their building, was able to 
install 300 phone lines for City Hall in less than 48 hours--in a 
difficult and dangerous environment I might add. This type of service 
would normally take a minimum of 21 days to install because of the need 
to acquire permits to construct facilities in the right of way and gain 
the building owners permission to enter the building. (If our fiber was 
already into this building, we could have installed service within a 
few hours.)
    Additionally, we participated in regular meetings with the city's 
Department of Information, Telephone and Technology (DOITT) to identify 
other municipal offices that needed service restored. With the 
cooperation of the incumbent telephone company and other telecom 
providers, the industry was able to identify which companies had 
network in place and restored service where it was needed. Although the 
incumbent telephone company was working valiantly to restore service, 
in such a dramatic situation it was clearly beneficial to have multiple 
providers in the market to restore critical services.
Disaster Recovery Requires Both Prevention and Recovery
    Many businesses understood the value of building redundancy into 
their communications and data systems prior to 9.11, but many more are 
focused on it today. The best way to minimize disruption to critical 
infrastructure is to avoid having a single point of failure through 
diverse and redundant network facilities.
    Customers can obtain diversity primarily by obtaining services from 
two different facilities-based carriers. By doing so, customers 
decrease the likelihood of a complete service outage if one of their 
competing carriers' service goes down. Also, having an established 
relationship with more than one carrier facilitates the replacement of 
services.
The Time Warner Telecom Network
    We have constructed our network in a manner designed to eliminate 
single points of failure. For example, in NYC we have switches in two 
locations--one on 61st street and one on 23rd. We build our network in 
a ring topology that provide a diverse and redundant electronics in 
order to reduce the likelihood that service will be lost in the event 
of a failure in any part of the network. I'd like to take a moment to 
explain our network architecture.
    Since 9.11, we have increased security at all our facilities, 
implemented more thorough disaster prevention and recovery plans, and 
presented a series of seminars to educate the business community of the 
value and process of building redundancies into their communications 
systems. For illustrative purposes, I have provided the committee with 
the materials used for some of these seminars.
Policies That Promote Facilities-Based Competition Give Customers 
        Access To a Critical Tool Needed To Plan Against a Single Point 
        of Failure
    Businesses must have access to more than one facilities-based 
carrier. This access is essential to minimize disruptions to critical 
infrastructure and to reduce downtime and loss of major business 
functions in the event a disruption cannot be avoided. Government can 
ensure the public and private sectors have access to these services by 
reducing the barriers to construction that currently exist.
Barriers To Construction
    In order to recognize the goal of true facilities-based 
competition, companies must physically construct their own fiber 
network. There is incredible demand for these services in the 
marketplace. But too often we are not able to meet that demand because 
we can't get the permits we need to access the right of way or we can't 
the building owners permission to enter a building in a timely and 
cost-effective manner. These two barriers to construction--the failure 
of building owners to open their buildings to competitors and the 
failure of municipalities to approve construction permits under 
reasonable terms, quickly and on a competitively neutral basis are a 
problem for me because they limit my ability to grow my business. But 
they also restrict access to a public good and deny businesses the 
ability to purchase critical services from providers of their choice.
Building Access
    In order to serve customers with our own facilities, we need to 
take our fiber directly into the customer's buildings. In order to do 
this we must obtain access into the buildings in which are customers 
are tenants. In the initial aftermath of 9.11 we found building owners 
in NYC much more cooperative in providing access to their buildings. 
Unfortunately, we are now seeing them return to the practice of 
delaying this access and imposing unreasonable costs on the price of 
access. How soon they have forgotten the lessons of 9.11. While I 
encourage you to address the building access issue for the entire 
marketplace, there is something that government can do easily today.
    First, the federal government should be required to purchase local 
telecommunications services from at least two providers with distinct 
network facilities in each market where choice is available. Present 
law permits, but does not require, purchases from two or more vendors. 
This requirement is necessary to ensure that federal agencies have 
telecommunications services that are diverse and redundant. This is a 
crucial element to protect the ability of the federal government to 
remain in operation and communication with the public and others during 
a disaster or other emergency, and to increase the stability of our 
government's networks.
    Diversity involves establishing physically different routes into 
and out of and a building, and different equipment; so as to better 
ensure continued operations in the event that one route or network is 
impacted adversely by a disaster or other form of interference.
    Redundancy involves having extra capacity available, generally from 
more than one source, and also incorporates aspects of diversity. Not 
only does redundancy entail having capacity in reserve to handle sudden 
increases in demand or partial outages, but it also entails securing 
service from more than one provider where practicable. The use of 
multiple providers increases the probability that service will be 
maintained or restored in the event of a disaster, emergency, or 
carrier-specific problem, and decreases the chances that all 
communications capabilities will be affected in the same way at any 
given time. It ensures the availability of two distinct workforces to 
serve the customer and the opportunity to try two different approaches 
to solve a common or related problem.
    This requirement will help the federal government to reap the 
benefits of continued competition. Having multiple providers and 
diverse facilities enables the federal government to increase or 
decrease the use of a provider or set of facilities, thus creating 
continued incentive on the part of the carriers to provide good 
service, favorable pricing and continued innovation and cooperation. A 
multi-vendor strategy provides valuable leverage to federal tenants.
    Ensuring that multiple companies will have a greater opportunity to 
provide local service and serve federal tenants is a way to promote and 
advance the goals of the Telecommunications Act of 1996 while at the 
same time providing a valuable benefit to the federal government in its 
capacity as a purchaser of telecommunications services. This 
requirement also would create an economic stimulus that would promote 
telecommunications investment, competition, and jobs.
    Second, where the federal government seeks to lease space from a 
private landlord, absent special circumstances, the federal government 
should do so only in buildings where any telecommunication provider(s) 
it or any other tenant selects can have physical access to the building 
promptly at fair rates and on reasonable and nondiscriminatory terms.
    This requirement is vital to ensure that federal lease dollars are 
spent only in buildings where federal and other tenants have the right 
to choose multiple facilities-based telecommunications providers in 
order to secure diversity and redundancy in telecommunications services 
to better ensure continued communications during a disaster or 
provider-specific emergency.
    Without this requirement, building access by facilities-based 
telecommunications providers would be at the discretion of the current 
or future building owner. Even if federal or commercial tenants chose a 
single telecommunications provider, that choice could be thwarted, and 
the landlord could choose a different carrier.
    This requirement also is necessary to ensure that savings from the 
competitive procurement of local telecommunications services by the 
federal government can actually be realized--otherwise the chosen 
provider(s) may not be able to obtain building access on fair and 
reasonable terms.
    Federal leasing dollars should not be showered on buildings that 
block, impede or delay telecommunications competition and thereby harm 
federal and other tenants--those dollars should be spent in a way that 
allows the federal government and other tenants to reap the benefits of 
the Telecommunications Act of 1996 and thus spurs the development of 
network facilities.
    Even before the national security implications of access to diverse 
and redundant telecommunications service were highlighted, there has 
been bipartisan congressional concern to secure building access for 
telecommunications providers in buildings with federal tenants.
    Last Congress, Senators Stevens, Hollings, Lott and Dorgan, and 
Congressmen Tom Davis and Rick Boucher, introduced legislation that 
would require, absent special circumstances, that federal tenants only 
lease space where telecommunications carriers can have 
nondiscriminatory access to them.
    Congress, aware that the former Administration was considering the 
issuance of an Executive Order imposing a requirement similar to the 
one discussed here (the EO was drafted but never issued), adopted 
language last year in the Conference Report to accompany HR 4475, an 
appropriations bill, Report 106-940, noting that the conferees were 
``aware that . . . potential cost savings may be jeopardized by 
building access limitations for telecommunications providers.'' The 
Conference Report noted the pendency of legislation on building access 
and then directed the executive branch to ``identify building 
telecommunications barriers and take necessary steps to ensure that 
telecommunications providers are given fair and reasonable access to 
provide service to Federal agencies in buildings where the Federal 
government is the owner or tenant.''
    President Bush, as Governor of Texas, signed landmark legislation 
going well beyond the modest step urged here of requiring that federal 
leasing dollars be committed only to buildings allowing facilities-
based telecommunications carriers building access on fair, reasonable 
and nondiscriminatory terms so that they may serve a tenant who selects 
them. The Texas law signed by Governor Bush affords any tenant the 
right for a carrier with whom he, she or it contracts for service to 
obtain building access promptly on reasonable and nondiscriminatory 
terms. And it was implemented aggressively by the Governor's appointees 
to the Texas Public Service Commission so as to deter landlords from 
thwarting consumer choice.
Access To Rights of Way
    Timely and cost-effective access to municipal rights of way is also 
critical for the construction of alternative fiber optic networks. Too 
often municipalities delay this construction by attempting to charge 
unreasonable rates and impose unreasonable terms and conditions on this 
access. In conjunction with other telecommunications carriers--
including long distance carriers, competitive local exchange carriers 
and incumbent local exchange carriers--TWTC has called for the FCC to 
intervene. The coalition has proposed the following recommended 
measures to promote reasonable access to public rights-of-way:

  <bullet>  Access to public rights-of-way should be extended to all 
        entities providing intrastate, interstate or international 
        telecommunications or telecommunications services or deploying 
        facilities to be used directly or indirectly in the provision 
        of such services (``Providers'').
  <bullet>  Government entities should act on a request for public 
        rights-of-way access within a reasonable and fixed period of 
        time from the date that the request for such access is 
        submitted, or such request should be deemed approved.
  <bullet>  Fees charged for public rights-of-way access should reflect 
        only the actual and direct costs incurred in managing the 
        public rights-of-way and the amount of public rights-of-way 
        actually used by the Provider. In-kind contributions for access 
        to public rights-of-way should not be allowed.
  <bullet>  Consistent with the measures described herein and 
        competitive neutrality, all Providers should be treated 
        uniformly with respect to terms and conditions of access to 
        public rights-of-way, including with respect to the application 
        of cost-based fees.
  <bullet>  Entities that do not have physical facilities in, require 
        access to, or actually use the public rights-of-way, such as 
        resellers and lessees of network elements from facilities-based 
        Providers, should not be subject to public rights-of-way 
        management practices or fees.
  <bullet>  Rights-of-way authorizations containing terms, 
        qualification procedures, or other requirements unrelated to 
        the actual management of the public rights-of-way are 
        inappropriate.
  <bullet>  Industry-based criteria should be used to guide the 
        development of any engineering standards involving the 
        placement of Provider facilities and equipment.
  <bullet>  Waivers of the right to challenge the lawfulness of 
        particular governmental requirements as a condition of 
        receiving public rights-of-way access should be invalid. 
        Providers should have the right to bring existing agreements, 
        franchises, and permits into compliance with the law.
  <bullet>  Providers should have a private right of action to 
        challenge public rights-of-way management practices and fees, 
        even to the extent such practices and fees do not rise to the 
        level of prohibiting the Provider from providing service.
  <bullet>  The Commission should vigorously enforce existing law and 
        use expedited procedures for resolving preemption petitions 
        involving access to public rights-of-way.
About Time Warner Telecom
Company History
    Time Warner Telecom began in 1993 as part of the Time Warner 
Entertainment Limited Partnership. The focus of the Company was to 
provide cable/phone services to residential and business customers 
using hybrid fiber coax (HFC) technology. After an extensive pilot 
program to test residential service, Time Warner Communications evolved 
into a company that offers business phone services over fiber-optic 
networks.
    In 1997, the Company added voice circuit switches and began 
operating as a business CLEC. In 1998, Time Warner Communications 
became a separate entity from Time Warner Entertainment and began to 
operate as Time Warner Telecom Inc. During 1999, TWTC became EBITDA 
positive, acquired an ISP, built a national IP backbone and went 
public, offering 18,000,000 shares on the NASDAQ exchange. We trade 
under the symbol: TWTC. In August 2000, TWTC successfully bid, during 
an open auction bankruptcy proceeding, for most of the assets of GST 
Telecommunications. This allowed us to double the size of the company 
and extend our operating footprint throughout the Western United 
States. By end of 2001, TWTC offered telecommunications services over 
its own fiber optic networks in 44 markets in 21 different states.
Ownership Structure
    We are very proud to carry the Time Warner name. As I described 
earlier, TWTC was initially created as division of Time Warner 
Entertainment. While Time Warner Inc, now AOL Time Warner, owns 44% of 
Time Warner Telecom Inc. stock, Time Warner Telecom Inc. is an 
independently owned and operated company. The most important point, 
from both your perspective and mine, is that we have no financial 
backing from AOL Time Warner. We obtain the capital we need to do 
business the same way the rest of the independent CLECs obtain theirs, 
through debt and equity offerings in the financial markets and from 
operating cash flow.
Company Growth
    During a time when the news is full of stories on bankruptcies and 
employee layoffs we are expanding our network and hiring new people. In 
1996 TWTC had 500 employees, the majority of them located in the 
corporate headquarters in Littleton, Colorado. Today we have 
approximately 2500 employees and are providing service and employing 
people in 21 states. Time Warner Telecom's growth plans focus on 
geographic expansion, extension into new market segments and 
development of new data and Internet-based products and services. Our 
success to date is the result of building and deploying our extensive 
local and regional fiber optic networks all the way to the end user's 
building and providing a diverse physical alternative to the incumbent 
LEC. Our expertise is in selling complex network services that 
customers want and need over these networks. We execute and deliver on 
a sound business plan. We provide high quality broadband service to a 
diverse segment of the small, medium and large businesses in the 
country. In 1996 we had already constructed 5000 route miles. Today 
that has almost doubled to approximately local 9800 route miles. TWTC 
has constructed more route miles than any other local competitive 
carrier in the U.S. The fiber optic infrastructure we have built is 
important because it allows us to continue to layer more products and 
services on our network. One of the distinguishing characteristics of 
our network is that we have been laying this fiber in metropolitan 
areas; and the networks are large, averaging 400 route miles per city. 
We're building fiber where it is needed most, the last-mile. However, 
it is important that Congress recognize that the largest competitor in 
all of our markets, the local ILEC, has the ability to stymie our 
growth. Vigorous enforcement of the Act is the only elixir to the 
poison pill of anti-competitive behavior and abuse of market power.
Service Provided
    This is how we do business. In every city that Time Warner Telecom 
lays fiber, the sales staff is required to prove in advance that there 
is business to be had. We don't build a network just to show growth, we 
build a network to provide a service that is desired. This serves our 
customers and our shareholders well because it ensures our continued 
viability in the marketplace. And I can assure you that there is demand 
for the service we provide. In many cases we supplement the services 
that the incumbent carrier provides. Often, companies will come to us 
for their new business or for a specific portion of their telecom 
needs. As we prove our ability to provide this service, they give us 
more and more of their business.
    The fiber optic networks we have built allow us to offer our 
customers any technology, product or service solution. With virtually 
unlimited bandwidth, we can meet the rapidly changing demands of our 
customers. Our networks allow us to provide voice and data 
telecommunications services to a diverse customer base including public 
schools, private schools, universities, health care facilities, banks, 
the high-tech community, government agencies and military 
installations, law firms, public utilities, many small businesses, 
Internet Service Providers, insurance companies and most interestingly 
many of the telecommunications companies operating in the U.S.
Markets Served

Arizona:                                    Phoenix, Tucson
Colorado:                                   Denver
California:                                 San Diego, Los Angeles/
                                             Orange County, Santa
                                             Barbara, San Luis Obispo,
                                             Bakersfield, Fresno, San
                                             Francisco, Oakland,
                                             Sacramento
Florida:                                    Orlando, Tampa
Hawaii:                                     Honolulu
Georgia:                                    Atlanta
Illinois:                                   Chicago
Indiana:                                    Indianapolis
Minnesota:                                  Minneapolis
New Jersey:                                 Northern Jersey City
New Mexico:                                 Albuquerque
New York:                                   Albany, Binghamton, New York
                                             City, Rochester
North Carolina:                             Charlotte, Greensboro,
                                             Raleigh, Fayetteville
Ohio:                                       Cincinnati, Columbus, Dayton
Oregon:                                     Portland
South Carolina:                             Columbia
Tennessee:                                  Memphis
Texas:                                      Austin, Dallas, Houston, San
                                             Antonio
Washington:                                 Seattle, Spokane, Vancouver
Wisconsin:                                  Milwaukee


In Conclusion
    The need for diversity highlights the important benefits of a 
competitive telecommunications market. There is no question that the 
telecom industry has been affected by the downturn in the economy. But 
the need for competition is more important now than ever. Businesses 
and government offices need access to diverse networks, and they need 
quality services at affordable prices. Policies that promote 
competition are critical, and strict enforcement of the 96 ACT remains 
the most important tool the government has to encourage competition.
    Setting aside the advantages of competition, the attacks of 
September 11th and the demonstrated support by competitive telecom 
entrants such as Time Warner Telecom in restoring critical services, 
proves the strategic value of competitive fiber facilities based 
providers.
    Thank you for the opportunity to testify before you today. I am 
happy to answer any questions.

    Senator Inouye. Thank you very much, Ms. Herda.
    Listening to the testimony of the two panels, it is 
apparent to me that the problems that existed on 9-11 are still 
with us. The word ``interoperability'' is still a desired goal. 
Some have mentioned training of professionals, and the unknown 
factor of what is it going to cost. We have no public policy to 
speak of at this moment.
    So my question to all of you: Is there an agency in the 
government of the United States that can serve as a lead agency 
for the purposes you have articulated today?
    Mr. Crotty. Mr. Chairman, I believe that I cannot speak to 
interoperability of radio communications, which seems to be an 
emergency preparedness thing, but certainly the Congress of the 
United States and the FCC are best able to articulate policies 
that talk about the three things that the telecom providers 
were talking here at the table. That is for diversity and 
redundancy of our networks. Encouraging facilities-based 
competition can be done through pro-competitive policies and 
pro-investment policies. I think that would go a long way 
towards making our communications networks more robust.
    Right now we have a policy which seems to favor resale. 
That is not a policy that has worked too terribly well in lower 
Manhattan. When our network goes and other people are riding on 
that network, all the customers who are taking service from 
these resale providers, they are knocked out as well.
    As the President of Time Warner mentioned, and this is also 
true of AT&T, which had fairly robust facilities in lower 
Manhattan, as did MCI WorldCom, those providers who have scale 
and scope and do have diverse networks assisted materially in 
the rapid response to what happened on September 11th. I would 
suggest that is something that ought to be continued by 
investment policies and regulatory policies, investment 
policies sponsored by Congress and regulatory policies 
sponsored by the FCC.
    Senator Inouye. Ms. Herda.
    Ms. Herda. I would actually agree--I guess we do not do 
that very often, do we, as competitors? But I actually agree 
from our perspective, Congress and the FCC, for us as well the 
local PUC's too in dealing with the local municipalities. 
Obviously, being able to construct into the buildings is very 
important. You have to get permission to do that.
    On September 11th and for quite a while after that, a lot 
of the standard intervals for those types of things were 
obviously lifted so that we could all get in there and provide 
the emergency services. Some of the things that I had 
suggested--that executive order would be very helpful for 
building access issues, to get permission from landlords, it 
sends the right message to the rest of the real estate 
community, that they need to let competitive providers into the 
buildings instead of trying to make money off of those services 
that are coming into the building. It would be much more 
beneficial for their customers to have access to multiple 
vendors.
    Senator Inouye. Mr. Nash.
    Mr. Nash. From the public safety standpoint, we currently 
are faced with the situation that the systems are locally owned 
and operated by individual police, fire, and EMS companies. A 
lot of the problem relates back to the American culture of 
local control, and the control over the radio system comes into 
that.
    Nonetheless, over the last few years we have seen a number 
of efforts under way to bring together agencies to develop 
consolidated plans either on a regional basis or in some cases 
on a national basis. Currently within the FCC there is a 
Federal advisory committee operating known as the National 
Coordination Committee, looking primarily at the 700 megahertz 
band, but nonetheless we are having discussions about being 
able to bring together a plan for agencies to interoperate 
amongst themselves.
    Furthermore, at the Federal level there is an effort going 
on known as the public safety wireless network, which is a 
joint effort of the Department of Justice and the Department of 
Treasury which again is looking at the, if you will, 
proliferation of different public safety radio systems, 
including at the Federal level, and what we can do to try to 
bring those systems together and provide for some cooperation 
and coordination between agencies as we come together in 
disasters like this.
    Furthermore, again at the Federal level and dealing more, 
quite frankly, in the forestry conservation area, where we 
every year see tremendous fires, particularly out West, with 
many thousands of acres being burned down, the U.S. Forest 
Service, the Bureau of Land Management, and the resource 
agencies have banded together and created a centralized cache 
of equipment and frequencies and plans based out of Boise, 
Idaho, which again we make use of at the local level.
    So there are a number of different efforts going on, 
perhaps not as well coordinated as they should be, but a lot of 
efforts are out there going to try to bring together the 
interoperability problem.
    Senator Inouye. Ms. Harris.
    Ms. Harris. I would agree with both my colleagues to the 
left and the right of me as we look at what I think the FCC and 
Congress can help with in either executive order in a number of 
areas: one particularly, to make sure there is enough spectrum; 
two, to make sure that, from a cell-siting perspective, that we 
can get access and get it quickly. We did find that some of the 
regulations and bureaucracy that was removed in order to 
respond to the 9-11 crisis made it somewhat easier for us to 
get our COW's placed, etcetera. But the process in general can 
be cumbersome and very lengthy to get cell sites on the air. So 
I think that would be very helpful as well.
    Senator Inouye. Mr. McLean.
    Mr. McLean. Mr. Chairman, the ComCARE Alliance believes 
that it will require unprecedented coordination between State, 
local, and Federal agencies. We have an opportunity with 
President Bush creating an Office of Homeland Security to have 
a focal point for the coordination. We have several models to 
look at. When the Congress and the President adopt a national 
telecommunications and technology priority, agencies across the 
Federal Government and in the State and local arena work 
together.
    A prime example of that was in 1996 when this Committee and 
the Congress and the President said, we will connect schools 
and libraries to the information infrastructure, and agencies 
across the Federal Government--Department of Education, 
Department of Commerce, the Department of Agriculture--focused, 
FCC, focused efforts to achieve that goal.
    With the Office of Homeland Security, we have an 
opportunity to say that we need to take emergency 
communications to a twenty first century level of connectivity. 
You can build on efforts, for example, that Senator Burns has 
started in his own State to be able to bring the parties 
together, and Senator Burns has a way of saying: check your 
jurisdictions at the door; let us just come around the table 
and work together and solve this problem. That is what needs to 
happen in all 50 States of this Nation.
    Senator Inouye. Let me yield to Senator Burns.
    Mr. Crotty. Mr. Chairman, could I add one further point? As 
a resident of Manhattan and I have lived and worked there 
almost all my professional life, one thing you can do--there is 
a story in Time Magazine this week about a ten-kiloton bomb 
which was going to be planted in Manhattan. Speaking as a New 
Yorker and somebody who was intimately involved in the 
emergency response, I think it was terrible for the Federal 
Government not to share that information with the city so that 
the city could have done something about it, either creating 
some kind of isolation zone or communicating in some fashion or 
developing their own security arrangement.
    After all, the City of New York responded to this terrible 
attack pretty much on its own. By the time FEMA showed up, we 
had many of the relief mechanisms already in place, up, 
functioning and operating, and operating very well indeed.
    So for the Federal Government to have this information and 
not be able to share it with our elected authorities I thought 
was a terrible commentary on the sharing of information. I 
would hope that you would be able to do something about that in 
the future so that information between the Federal Government 
and the local government is shared on a more open basis. After 
all, when you talk to the Federal Government they say the local 
authorities, that we should be reporting information to them 
all the time. When it comes the other way around, the Federal 
Government is not very good at sharing information with local 
authorities. I certainly thought that was a major, major flaw 
in the Federal Government's involvement with New York City. 
They should have been sharing that information.
    Senator Inouye. Senator Burns.
    Senator Burns. Thank you. I cannot imagine you would get 
all excited about a little old bomb like that.
    Mr. Crotty. Well, I am speaking now as a citizen who lives 
at 60th and First Avenue. I was concerned about that, yes.
    Senator Burns. I thank you for that information.
    Chris McLean, of course, helped us set our summit up in 
Montana and I would recommend to our colleagues that they do 
something like that. We are moving forward, I think, and 
coordinating our E-911 and our first responders and moving 
right along, although the deployment of the technology, that is 
just a little bit slower than we would like. But nonetheless, I 
understand that there is also economics involved, and we will 
work our way through those, too.
    Mr. Nash, as I mentioned in my statement, one of the most--
well, I guess I did not even give my statement. Deployment of 
E-911 and of this service, deployment of this service, 
coordination between public safety and wireless operators to 
ensure it results in end to end systems that quickly and 
accurately locates wireless 9-1-1 calls, how would you 
characterize the progress that you are making?
    Mr. Nash. At the moment the progress is somewhat 
disappointing. We see two sides of the problem. The carriers 
are moving along, but they also are repeatedly asking for 
waivers to extend the period of time they have to implement the 
technology. Some of that comes down to whether or not the 
solution they have selected, whether or not a vendor is able to 
supply that and it works. There are a lot of arguments that 
have come into it.
    What concerns us from the public safety side is that their 
continually returning to the Commission asking for an extension 
of the time just pushes this out.
    The other side of it is, from the public safety answering 
points of this, there is work that we also need to do to 
prepare the PSAP's to utilize this information. That requires 
an infusion of money, and a lot of PSAP's at the moment are 
short of cash in order to implement some of the new 
technologies, the mapping systems, the personnel that might be 
needed in order to implement that.
    So there are really two parts to the problem. We are 
working on, from APCO's standpoint, on trying to equip the 
PSAP's in order to make use of this information. They need to 
do some work with their legislative and governmental 
organizations to acquire the funding to do it. But at the same 
time, we feel it is really necessary to keep the pressure up on 
the carriers, for them to be moving forward rapidly in 
selecting a viable technology to implement and start putting 
that in place so that we can make use of that.
    It is vital information for our public safety people in 
order to respond to just the day to day emergencies that come 
up every day. More and more of those emergencies are being 
reported via wireline telephone--or wireless telephone, and we 
simply do not know where those people are to give them to help 
that they deserve.
    Senator Burns. I thank you for that. I think there is still 
some concern in Congress about the deployment.
    Ms. Herda, I was interested in--and I have run into this 
before and I do not know how to approach this, because I am a 
strong believer in property rights and people should be able to 
do with their property and allow certain things on their 
property that they deem for themselves or whatever. Your 
permits for access in the buildings--sometimes the owner makes 
a deal with one company and denies the access of other 
companies.
    Is there any merit in the Congress taking a look at those 
situations in light of emergency conditions, that there should 
be at least maybe two providers granted access out of how many 
wants it, but nonetheless there should be two?
    Ms. Herda. In light of emergency situations, you should 
always have at least two. It is interesting. Property rights 
issues are obviously a very sensitive issue when it comes to 
trying to get access into a building. The State of Texas has 
actually done a really good job in that regard in basically 
mandating a nondiscriminatory access into buildings. At a 
minimum what it does is it gives us a negotiating position with 
the building owners.
    We have never said that we needed to go into the buildings 
for free, unless the local exchange carrier is in it for free. 
But we have been always willing to pay with reasonable rates, 
to pay for the access into the buildings and for the 
distribution within the buildings. So it does not cost the 
building owners any money to have us in there and in fact it 
adds additional diversity, and it obviously has a tremendous 
amount of value in terms of emergencies.
    If the government mandated that there were at least two 
competitors in a building at a minimum, without putting any 
restrictions on having more in there, it would certainly go a 
long way. I think that, at a minimum, if the government 
mandated in their own buildings, in the buildings that the 
government leases today--and there are many, many of those, and 
some of them are multi-tenant buildings, too, that serve public 
companies--private companies, rather, as well, that would 
absolutely go a very long way to moving the real estate 
community in that direction. I think that would be an excellent 
idea.
    Senator Burns. I want to thank this panel because not only 
did they give us some idea of the challenges that they faced 
during 9-11 in New York City and of course here in Washington, 
D.C., and also the things that they have recommended through 
their testimony on maybe some actions that the government 
should consider and some answers to some questions. I 
appreciate that.
    I look forward to reading some other testimony that we are 
going to take on this thing, Mr. Chairman. But that is 
basically all the questions I have. I appreciate the 
thoroughness of your testimony and your statements before this 
Committee.
    That is all I have. I have got a 4:30 appointment. Besides 
that, if we do not let these people get out of here everybody 
is going to be asleep out there. Have you noticed folks nodding 
off?
    Senator Inouye. Well, I am going to keep the record open 
for 3 weeks just in case you have any additional statements you 
would like to submit.
    I would also like to advise my Committee as to whether they 
would like to submit questions to you. I regret that they were 
not here, but, as I pointed out earlier, there are two events 
that made this not possible. But I wish to join my colleague in 
thanking all of you for your testimony. For a moment I thought 
I saw the dark shadow of Tauzin-Dingell over us.
    Mr. Crotty. We were told to stay away from it.
    [Laughter.]
    Senator Inouye. But it is good to see competitors sitting 
together in one panel and talking to each other.
    So with that, this will not be the first and last hearing 
on this matter, I can assure you, because I for one am still 
not convinced that we are ready for another big one, and it may 
happen. I hope not.
    So with that I thank you all very much.
    [Whereupon, at 4:37 p.m., the Subcommittee was adjourned.]

                                  <all>

</pre></body></html>
